<html>
<title> - SUDAN: A REVIEW OF THE ADMINISTRATION'S NEW POLICY AND A SITUATION UPDATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  SUDAN: A REVIEW OF THE ADMINISTRATION'S NEW POLICY AND A SITUATION 
                                 UPDATE

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2009

                               __________

                           Serial No. 111-76

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
53-830                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER,                       DONALD A. MANZULLO, Illinois
    Florida<greek-l>Until 1/4/       EDWARD R. ROYCE, California
    10 deg.                          RON PAUL, Texas
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
BILL DELAHUNT, Massachusetts         MIKE PENCE, Indiana
GREGORY W. MEEKS, New York           JOE WILSON, South Carolina
DIANE E. WATSON, California          JOHN BOOZMAN, Arkansas
RUSS CARNAHAN, Missouri              J. GRESHAM BARRETT, South Carolina
ALBIO SIRES, New Jersey              CONNIE MACK, Florida
GERALD E. CONNOLLY, Virginia         JEFF FORTENBERRY, Nebraska
MICHAEL E. McMAHON, New York         MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California
               Noelle LuSane, Subcommittee Staff Director
       Lindsay Gilchrist, Subcommittee Professional Staff Member
          Sheri Rickert, Republican Professional Staff Member
                     Antonina King, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Major General Scott Gration, USAF, Retired, United States Special 
  Envoy to Sudan, U.S. Department of State.......................    12
Randy Newcomb, Ph.D., President and Chief Executive Officer, 
  Humanity United................................................    35
Mr. Enrico Carisch, Former Coordinator, United Nations Panel of 
  Experts on the Sudan...........................................    43
Mr. John Prendergast, Co-founder, Enough Project.................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey, and Chairman, Subcommittee on Africa 
  and Global Health: Prepared statement..........................     4
Major General Scott Gration, USAF, Retired: Prepared statement...    15
Randy Newcomb, Ph.D.: Prepared statement.........................    38
Mr. Enrico Carisch: Prepared statement...........................    48
Mr. John Prendergast: Prepared statement.........................    58

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    80


  SUDAN: A REVIEW OF THE ADMINISTRATION'S NEW POLICY AND A SITUATION 
                                 UPDATE

                              ----------                              


                       THURSDAY, DECEMBER 3, 2009

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m. in 
room 2172, Rayburn House Office Building, Hon. Donald M. Payne, 
(chairman of the subcommittee) presiding.
    Mr. Payne. The hearing of the Subcommittee on Africa and 
Global Health will come to order. Agenda, Sudan: A Review of 
the Administration's New Policy and a Situation Update.
    First of all, let me begin by welcoming our first 
panelists. But before we get into the hearing on Sudan, I would 
like to regretfully report that this morning an estimated 20 
people were killed in Mogadishu in Somalia, including three 
ministers. Two of the ministers I knew very well. I visited 
Mogadishu 7 months ago and met with these ministers, the 
Minister of Education, the Minister of Health, and we had had 
previous meetings in Nairobi. It was a graduation of the 
medical school in Mogadishu where this tragedy occurred. And so 
we would like to express our condolences to the victims and 
their family members, the transitional Federal Government of 
Sheikh Sharif Sheikh Ahmed and the people of Somalia.
    Secondly, I just got off the phone with the President of 
Puntland. Puntland, as you know, is one of the three Somali 
regions that include Somalia, Puntland, and Somaliland. And we 
just reached an agreement this morning on prisoners who were 
being detained by the government of Puntland. These were people 
from the Ogaden, and they were being held without cause. And so 
we have been working with the President of Puntland to try to 
get their release. And this morning the President will announce 
that he will commute their sentences and he will release them. 
And so I would like to thank the President of Puntland and 
Amnesty International, and Jim Hill, who have been working with 
Puntland's representative in the Ogaden community here in this 
area.
    Let me then move to our hearing this morning, Sudan: A 
Review of the Administration's New Policy and a Situation 
Update. Let me also express my deep appreciation to the 
witnesses who are certainly among the most knowledgeable people 
on Sudan. Over the years, we have held so many hearings and 
briefings on Sudan, and people here are tremendously interested 
in trying to bring attention to the suffering of innocent 
civilians and in the hope of promoting a just peace for all.
    Many believe and hope that the signing of the Comprehensive 
Peace Agreement or the Darfur Peace Agreement would bring about 
the much-desired peace and stability in Sudan. Unfortunately 
and despite multiple efforts, millions of Sudanese continue to 
suffer. I sometimes wonder if we will ever get a just peace in 
Sudan as long as the al-Bashir regime is in power. For those 
who still believe that a peace agreement with this regime will 
bring an ending to the suffering, I say look again at the 
situation in Darfur and in Abyei.
    Some of us saw firsthand the aftermath of the burning of 
Abyei by government and pro-government militia in May 2008 when 
more than 50,000 people were displaced from their homes. As a 
Senator, President Obama stated, ``For years, the Government of 
Sudan has thwarted the will of the United States and the 
international community and offended the standards of our 
common humanity. Before we improve our relations with the 
Government of Sudan, conditions must improve for the Sudanese 
people. We cannot stand down. We must continue to stand up for 
peace and human rights.''
    I fully agree with then-Senator Obama, now our President. 
It was not long ago that we witnessed another horrific genocide 
in Africa. The international community, including the United 
States, turned a blind eye to the gruesome genocide in Rwanda 
in 1994. In Rwanda, an estimated 1 million people died in less 
than 100 days. In Darfur, 6 years since the genocide began, the 
people of Darfur are still waiting for the suffering to end.
    A few years ago I stated, ``If Rwanda was a black mark on 
our conscience, Darfur is a cancer that will destroy the moral 
fiber of our society.'' This is still the case. I am not 
opposed to a policy of engagement. In fact, I always argue we 
should give peaceful dialogue a chance before we declare war.
    For some, our policy is too focused on punitive measures. I 
beg to differ. The United States has been at the forefront when 
it comes to engagement. We never disengaged. The United States 
has appointed more special envoys to Sudan than it has to any 
other country in Africa. Why? In order to secure a just peace. 
We have imposed punitive measures against this regime, but we 
have always helped the Sudanese people.
    In October 2009, last month, the Obama administration 
announced a new policy toward Sudan. The policy focuses on 
three priorities: An end to the conflict in Darfur, 
implementation of the Comprehensive Peace Agreement, the CPA, 
and ensuring Sudan does not become a safe haven for 
international terrorist groups.
    The new policy clarifies a number of issues that surfaced 
in recent months and reaffirms the conflict in Darfur, that it 
is genocide, stating that the United States's primary objective 
in Darfur is ``a definite end to conflict, gross human rights 
abuses and genocide in Darfur.'' The new Sudan policy also 
states that cooperation on counterterrorism without verified 
progress on other issues will not lead to a normalization of 
relations.
    The administration also plans to enhance U.S. assistance to 
South Sudan and to help prepare that country for a possible 
two-state outcome should the people choose independence in the 
2011 referendum. I fully support the policy objectives of the 
new policy.
    The question remains, What if the regime continues to 
obstruct these efforts? What are we doing to promote justice 
and accountability? The United States Government supports a 
transparent, free and fair election in Sudan. Can those 
elections be free and fair while 3 million people are still 
displaced in refugee camps? By supporting the elections with 
Bashir as a candidate, are we saying no to justice and 
accountability? It is my hope that through the course of 
today's hearing we will gain greater insight into these 
critical issues.
    Let me once again thank our distinguished witnesses. And 
before I introduce them, let me turn to our Senator, who has 
graced us. As you know, Senator Brownback has been a leading 
witness and fighter on the questions of Sudan, and in lieu of 
the ranking member, I will certainly turn the mike over. We are 
pleased to have you with us, Mr. Senator.
    [The prepared statement of Mr. Payne 
follows:]<greek-l>Payne statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Brownback. Thank you very much, Chairman Payne, I 
appreciate it. Thank you for the invitation to be here today. I 
know this is highly unusual, but I am honored and I am pleased.
    I would note to the crowd, and a number of people already 
know this, but when we declared genocide when it was taking 
place in Darfur, it was Congressman Payne, you were the one 
that led that effort and that charge. And a number of people 
were saying, Well, do we really want to do this, is this really 
the time, is this really the place? And you fought and said 
yes, it is, let us not do it after it happens, let us try to 
stop it while it is happening. And you leaned in aggressively, 
and we did that for the first time in I believe the history of 
this country. And it was important.
    That is what draws my attention to be here today. In the 
ashes of World War II, the international community adopted the 
Geneva Convention and the Convention on the Prevention and 
Punishment of the Crime of Genocide, designed among other 
reasons to protect against and deter future mass atrocities.
    Now, since its adoption, these conventions have served as 
the basis for targeting and bringing to justice several 
notorious war criminals and perpetrators of mass atrocities. 
The United States has participated in several cases. We helped 
to bring to justice former Serbian leader Karadzic, the so-
called Butcher of Bosnia, accused of slaughtering hundreds of 
thousands of innocent people. We even put a $5 million reward 
for information leading to his capture, and he currently 
resides in prison at The Hague.
    Charles Taylor, the warlord turned leader of Liberia, 
assumed power in the 1990s on an election slogan of ``He killed 
my ma, he killed my pa, but I will vote for him.'' Taylor was 
directly involved in coordinating and supporting unthinkable 
atrocities over many years. The Congress passed legislation 
offering a $2 million reward for Taylor's capture. He was 
caught having fled to Nigeria and now sits in a prison at The 
Hague alongside some of the world's worst offenders of human 
rights. The United States was involved in that one as well.
    Yet despite American interest and involvement in these and 
other cases, there is only one instance in the history of the 
United States when our Government acknowledged and declared a 
genocide at the time it was taking place. It was one I just 
alluded to. That place is Sudan, and the genocide declared in 
2004 continues under our watch today.
    Under the reign of President Bashir, the Khartoum 
Government has committed two genocides. Sudan has become a 
haven for al Qaeda, another terrorist organization, while the 
regime provides support for Joseph Kony's Lord's Resistance 
Army, the most horrific terrorist group in Central Africa 
today.
    Added to that, in March, the International Criminal Court 
issued an arrest warrant for Bashir on five counts of crimes 
against humanity and two counts of war crimes. His government 
responded by expelling more than a dozen humanitarian groups 
from Darfur, seizing their assets and threatening life-saving 
operations in Darfur.
    Based on our nation's leadership in the past, one might 
think that such a unique and tragic designation in Sudan would 
have triggered a massive effort not only to bring an end to the 
genocide but also to bring justice to the perpetrators. And 
indeed, at one point, the tragedy of Sudan's genocide did stir 
this country.
    I recall, as many of the people in the audience will, mass 
rallies to save Darfur, headlined by Hollywood celebrities, 
countless student initiatives at universities across the 
country and successful efforts to divest at the state and local 
level. At that time, for the American people, nothing short of 
peace for the victims and justice for the criminals would 
suffice. This was the organic compassion embedded in the 
American ethos bursting forth to aid our brothers and sisters 
in distress a world away.
    Now the previous administration fell short of ending the 
ongoing genocide. The Obama administration's new policy would 
actually provide a package of incentives to offer the 
perpetrators of genocide to the indicted war criminal, Omar al-
Bashir, incentives. In effect, the policy is to allow the 
genocidal regime in Khartoum to trade away some political and 
territorial concessions in exchange for measures, such as 
diplomatic recognition and the easing of sanctions, which 
flaunt the fundamental principles of justice and 
accountability.
    I strongly oppose any approach toward Sudan that gives 
incentives and rewards to a genocidal regime headed by the 
Sudanese President, who is an indicted war criminal himself. 
Such a policy is engagement to the extreme and blind to 
fundamental principles of justice. This new policy sends the 
wrong messages to tyrants around the world, that they will not 
be brought to justice and instead may even receive American 
concessions for merely rolling back the intensity of their 
brutality.
    Our Government is trying to apply nuance to genocide, an 
approach that would be comical were it not so reprehensible. We 
cannot trade justice for peace. The ends do not justify the 
means.
    I look forward to hearing from the witness today, General 
Gration, of your thoughts on this. But I cannot believe we 
would offer incentives to a genocidal regime that is headed by 
an indicted war criminal.
    I thank you very, very much, Mr. Chairman, for allowing me 
this unusual honor to serve with you on this panel.
    Mr. Payne. Well, let me thank you very much and once again 
express my appreciation for the many years that you have worked 
on this issue and codel travel that you led a decade ago or 
more, so your record is very clear, and I appreciate you taking 
the time to come here. Thank you.
    Congresswoman Lee.
    Ms. Lee. Thank you very much, Mr. Chairman, and again, 
thank you for your leadership in holding this hearing. And I 
want to associate myself with Senator Brownback's remarks with 
regard to your leadership and being really the lone voice for 
many years in terms of declaring genocide as taking place in 
Sudan. We all know that that is the case, and we appreciate 
your leadership and for bringing us together really in a 
bipartisan way. I see Congressman Wolf in the audience.
    I visited Sudan the first time, I have been three times 
with Mr. Royce of California. And I think that all of us have 
concluded that this is an issue of humanitarian concerns. It is 
one of national security. It is an issue that should not be 
happening on our watch. Genocide should not be happening in 
this century.
    I am pleased to see General Gration. We talked before about 
the new policy. I am anxious to hear what has developed in 
moving forward on this because I think we all are anxious to 
see some concrete results. The people of Sudan deserve no less.
    I also have to commend the young people in our faith 
community for continuing with the simple message of save 
Darfur. They have really, truly been the wind beneath our wings 
here in Congress to bring this bipartisan consensus on 
divestment, on genocide and all of the actions that we have 
taken here.
    But we all know, as time and history have shown us, that 
the regime in Khartoum can be very creative in its obstinacy 
and in complying with international law on human rights even as 
it continues to perpetrate further crimes and injustices. Sudan 
and its people have gone through a heck of a lot over the 
years. Too many deaths, too many people have been forced from 
their homes, too many families have been destroyed, too many 
women have been raped, too many children have been killed.
    We have a moral responsibility to help the people of Sudan, 
the people of Darfur, achieve a peaceful and a stable future. 
So I hope that this new policy will produce a better set of 
results than what we have seen before, but I also know that we 
must retain our ability to impose harsher sanctions if this new 
direction does not bear fruit.
    Thank you again, and thank you, Mr. Chairman.
    Mr. Payne. Thank you. We will now hear from Mr. Royce, who 
for many years was the chair of the Subcommittee on Africa and 
has been a member of the committee for decades and has also 
worked very diligently on the whole question of Sudan. Thank 
you.
    Mr. Royce. Thank you very much, Mr. Chairman. And I would 
say it is good to have General Gration before the committee. As 
the General well knows, we have a difference of opinion and 
have had for some time with respect to how we move forward with 
Khartoum.
    I have been watching these war criminals for quite some 
time. At one point, General Gration, you and I had an 
opportunity in Darfur to see some of this firsthand. And I just 
wanted to thank John Prendergast, who is with us today, who 
helped guide us into Darfur, Sudan on that trip. And traveling 
alongside actor Don Cheadle, I chaired the delegation. We 
brought a Nightline camera crew, who you will remember, John, 
documented the atrocities that were committed not just by the 
Janjaweed militia used by the Sudanese Government--they also 
documented the atrocities committed by the Sudanese Government 
itself.
    And this gets to the point that I want to make. And I also 
want to thank some of the other members who traveled with us, 
Barbara, on that trip, as Congresswoman Lee did. But I wanted 
to make several observations here.
    One is thanks to the good work of Don Payne, and I chaired 
the committee when we put the genocide resolution through, we 
have a number of people that were involved in a principal way 
in putting this country on record in terms of where we would 
stand on the issue of genocide. And we have the first 
eyewitness, we have the eyewitness accounts ourselves as to 
what was happening.
    And I can share with you the testimony of one young boy who 
was missing his hand, and when asked what happened to it, he 
said, ``Janjaweed.'' And the pictures that he and others had 
sketched out of the attacks that had occurred on his village 
were attacks not just by Janjaweed but also by Antonov Planes, 
operated by the Sudanese Government, that had dropped bombs on 
his city.
    We went into Tina, which had been bombed by the Sudanese 
Government. We saw sketches of the halftracks and military 
vehicles and Sudanese Army troops that did the follow-up work 
to the Janjaweed when the Janjaweed was first sent in to commit 
the atrocities. The Army, the Sudanese Army came in afterwards. 
These are the reasons why Bashir is a war criminal, why he has 
been indicted by the International Criminal Court.
    But this is only the beginning. The discussion in terms of 
what his militia, which is being worked up in southern Sudan to 
again begin this process, these are the war crimes of a head of 
state who to this day won't allow many of the NGOs back into 
Sudan in order to assist in trying to bring some level of 
humanity and sustenance to the victims of this.
    But think for a minute what it means when the Sudanese 
Government assists a person like Joseph Kony, who is in the 
process of recruiting young children into the Lord's Resistance 
Army. Think about the fact that you have a militia whose 
purpose is simply to commit rape and mayhem across Central 
Africa. And then you have the surrendered commander of Kony's 
units who says that the Lord's Resistance Army is sponsored by 
Khartoum. This is something that we have known for a long time.
    But it is good to finally have an officer in Kony's forces 
come forward and say no, we are in fact sponsored by Khartoum 
and testified to the intention of LRA leader Joseph Kony to 
move along the Central African Republic border of Chad and then 
into Darfur to meet officers of the Sudan armed forces, long 
reputed to be the LRA sponsors.
    ``Kony told me,'' says the officer, ``that he was going to 
meet Fadeel, the SAF officer who coordinates LRA activities. He 
wants them to give him logistical support and a safe haven.'' 
Well, for many years that was the safe haven. That was the line 
of support for munitions and for wounded soldiers who were 
taken up and patched back into shape. This is the regime in 
Khartoum that we are dealing with.
    And I will add one other thing. Kony urged all LRA units to 
make their way to Darfur and report to the first Arab military 
post they came across. Kony is desperate. He said things are 
very hard. We were constantly on the move. Sometimes we would 
not rest for a week. The Ugandans were pursuing us everywhere.
    Well, this, my friends, is the reality of what is happening 
today. And the question is, What is the world going to do to 
bring an end to Kony's work, to bring an end to the barbarism 
that occurs and the suicidal and the genocidal acts that occur 
across Sudan? We took a certain commitment to put an end to 
genocide, and frankly, I think we got a rare victory the other 
day when Sudanese President Bashir's planned trip to Turkey was 
canceled.
    But again, at the end of the day, we have got to ask 
ourselves the same question that we will hear in the testimony. 
The former Coordinator of the U.N. Panel of Experts on Sudan 
will testify this morning, ``In contrast to that leadership of 
2004 and 2005, the United States appears to have now joined the 
group of influential states who sit by quietly and do nothing 
to ensure that sanctions work to protect Darfurians.''
    I want to hear today why that is not the case. I think that 
is dead on. I think that has to change. And it is going to take 
more than just John Prendergast working 24/7 to make it change. 
It is going to take members of this committee committing 
themselves to getting back on offense and seeing justice done 
for the victims in Darfur.
    Thank you very much, Mr. Chairman.
    Mr. Payne. Thank you very much. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I have not been as 
involved in the issue of Sudan and Darfur in particular as 
other members of the committee. I did with Ms. Lee visit Darfur 
and southern Sudan and Khartoum on a Congressional delegation 
led by Majority Leader Hoyer in April 2007.
    But I am very troubled that we have not kept a promise, a 
promise that humanity made before I was born but that I feel 
bound by, never again. The promise was not never again in the 
Western world or never again in the developed world, it was 
never again. We could not put an end to all evil, but genocide 
was different and humanity everywhere would act together to 
prevent genocide anywhere.
    There may be some problems of definition. There may be, 
where does an atrocity leave off and genocide begin? But it is 
very clear that there have been genocides since the Holocaust, 
in Cambodia, in Rwanda and now in Darfur. So we have not kept 
the promise of never again to allow genocide.
    We have learned bitter lessons about how hard it is to 
shape events in various places in the world. We certainly can 
all criticize our Government's failures to put an end to it, 
but the truth is that the world, all of humanity, has not acted 
in a way that we promised more than 60 years ago.
    I am pleased by the Obama administration's new emphasis on 
ending the genocide in Darfur, ending the violence and the 
atrocities, implementing the comprehensive peace agreement that 
ended the brutal, deadly civil war in southern Sudan. I welcome 
Ambassador Rice's comment that the strategy would be smart, 
tough and balanced. But the policy needs to be smart, tough and 
balanced in pursuit of a goal of ending genocide and ending the 
atrocities in the Sudan generally. Thank you. I yield back.
    Mr. Payne. Thank you very much. Congresswoman Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. As a direct result of 
our chairman's responsible insistence that the Darfur genocide 
be identified before rather than after all these atrocities 
become history, the people in my district--I am from Petaluma, 
California--started an effort called Dear Darfur, Love 
Petaluma. That effort has become an entire Bay Area effort. And 
they followed up after knowing that we stepped up to the plate 
and knew that genocide was occurring and we weren't turning our 
heads and knew that they had to do something about it. I am so 
happy that I represent such great people and work with such 
great people.
    And they know as well as we know we are at a very important 
point in Sudan's future right now. Their history is going to be 
written as we are Members of Congress, and we have such an 
important role to play, and I am truly concerned that so much 
attention is being placed on the logistics for the elections, 
which are very important, but these elections must have concern 
for the political environment in which they take place. And 
that is where I am unclear, because under the CPA, the 
government is supposed to revise laws governing freedom for the 
press, freedom for assembly and laws to limit the power of 
national security services.
    Well, I am hoping today that I am going to hear some 
information from you on if it is going to happen; if not, what 
we must do to ensure that we don't have elections that just are 
meaningless, because as I said, the history for Sudan and for 
the Sudanese people is being written right here before us. So 
thank you very much, Mr. Chairman.
    Mr. Payne. Thank you very much. I would like to invite 
Congressman Wolf if he would like to come up and be a part of 
the panel. As you know, Congressman Wolf has probably had the 
longest history of working on this issue of anyone in the 
Congress and preceding my time. He has said no. But I would 
certainly keep the offer open if there is any question you 
would like to ask. You are certainly welcome.
    And let me acknowledge also Ted Dagne, who has worked on 
this issue with Noelle LuSane, my staff director. But Mr. Dagne 
has been involved with the issue for quite some time and 
recently traveled to Juba with me 2 months ago--1 month ago. 
They told me it was 2 weeks ago. Time flies. And we had some 
very, very good meetings with government leaders in Juba and 
South Sudan, dealing with this whole issue of referendum 
elections. And so I would like to just acknowledge them.
    Also I would like to say that I appreciate the work done by 
Congresswoman Woolsey and Congresswoman Lee on this issue. I 
had the privilege to visit both of their districts over the 
course of the last year or so to meet with their residents who 
were so interested in following their leadership. And so I 
would like to really commend both of you for the work you do 
back in your districts as well as here.
    Well, let us turn to our principal witness on this first 
panel. We have Major General Scott Gration, U.S. Air Force, 
retired. Major General Scott Gration currently serves as the 
President's Special Envoy to Sudan. He spent his childhood 
years in the now-Democratic Republic of Congo and in Kenya.
    General Gration graduated from Rutgers University in New 
Jersey with a B.S. in mechanical engineering before joining the 
United States Air Force, where he served from 1974 to 2006. 
During his time in the Air Force General Gration served a 2-
year assignment with the Kenyan Air Force as an instructor. His 
staff positions included tours in the Pentagon and NATO and a 
White House fellowship. He was assistant deputy under secretary 
of the Air Force for international affairs.
    General Gration was a national security adviser to the 
Obama Presidential campaign and served as a special assistant 
to the President. General Gration speaks Swahili. He has an 
M.A. from Georgetown University in national security studies 
and is very committed to this issue at this time.
    Let me turn the floor over to our Special Envoy.

STATEMENT OF MAJOR GENERAL SCOTT GRATION, USAF, RETIRED, UNITED 
    STATES SPECIAL ENVOY TO SUDAN, U.S. DEPARTMENT OF STATE

    General Gration. Thank you very much. Chairman Payne, 
members of the House Subcommittee on Africa and Global Health 
and distinguished guests, thank you very much for this 
opportunity to provide an update on the administration's 
efforts in Sudan.
    Before I begin, let me add my heartfelt condolences to 
those who have been expressed by Chairman Payne this morning, 
to those who have suffered such a significant loss in the 
Mogadishu suicide attack. This event causes us all to think 
about how we must redouble our efforts to bring peace in all of 
Africa.
    Mr. Chairman, I would like to start by expressing my deep 
appreciation for your longstanding commitment to resolving the 
challenges associated with Sudan. We know that you traveled 
recently to the region, and we are thankful for your dedicated 
efforts to improve the lives of the Sudanese people, define 
lasting solutions to promote peace. We note that your 
commitment is widely shared by members of this committee, and 
we are also extremely grateful to each member for the deep 
interest in our efforts and for your continued support.
    As you know, the Secretary of State, Ambassador Rice and I 
presented the President's strategy on Sudan in October. This 
strategy uses an integrated and comprehensive approach and is 
focused on three major objectives.
    The first goal is to definitively end the conflict in 
Darfur, the gross human rights abuses, the genocide.
    The second is to implement the North-South Comprehensive 
Peace Agreement in a manner that results in a peaceful post-
2011 Sudan, a united Sudan or two separate and viable states at 
peace with each other, at peace with their neighbors.
    The third objective is to ensure that Sudan does not again 
become a safe haven for international terrorists. I will spend 
the next few minutes reviewing some of my recent activities and 
explaining how the administration's actions are helping to meet 
the goals outlined in the Sudan strategy. I will focus first on 
our efforts related to Darfur.
    In my travels to the Darfur region over the past 5 years. I 
have witnessed firsthand the devastation and destruction that 
conflict has inflicted on the people of Darfur, particularly on 
the women and children. In keeping with the first objective of 
our strategy, the administration remains committed to saving 
lives, to fostering meaningful and lasting reconciliation, to 
ensuring a durable peace for all the people of Darfur. We 
continue to support the Doha peace process, as the AU-U.N. 
Mediator, Djibril Bassole, seeks to negotiate an agreement that 
fully addresses the concerns of the Darfuri people.
    To give these negotiations the best possible chance of 
success, we have been working to unite the fragmented arm 
movements in Darfur so they can speak at a negotiating table 
with one voice. As a result of our efforts, eight rebel 
factions have formed a coalition and are committed to even a 
wider unification.
    In addition, we will continue to support and strengthen 
UNAMID. We will work with them and the Government of Sudan to 
improve local security conditions throughout Darfur and will 
strive to reduce tensions along Sudan's western border with 
Chad.
    Finally, we are working with USAID and operational NGOs to 
improve the humanitarian situation in Darfur, to improve NGO 
access to populations in need. In my travels I have observed 
that while significant effort has been made to fill the gaps, 
to minimize the sufferings caused by the expulsion of 13 NGOs 
in March 2009, humanitarian agencies have only limited access 
to areas outside the major towns because of the continued 
widespread insecurity. We are working closely with the United 
Nations, Africa Union and Sudanese authorities to improve local 
security, to advance the rule of law, to help build a better 
life, a better future for the Darfuri people.
    In keeping with the second objective of our strategy, we 
are working to fully implement the Comprehensive Peace 
Agreement. To that end, we are deeply engaged with the National 
Congress Party and with the Sudan People's Liberation Movement 
to resolve the remaining CPA challenges, to fully implement the 
agreements reached between the two parties.
    I believe our involvement in this process has been crucial 
to helping the parties negotiate agreements on elections, on 
referenda for self-determination. Our involvement will also be 
critical in helping prepare for the post-CPA period. Issues 
such as citizenship, north-south border demarcation, resource-
sharing must be resolved soon to facilitate a long-term 
stability along the border and in the region.
    We are also focused on ensuring that the April 2010 
elections are credible, that they further political 
transformation and the peace process. Voter registration will 
conclude next week, but far more work needs to be done in 
coordination with the Sudanese authorities and with our 
international partners to ensure that the will of the Sudanese 
citizens is clearly expressed and fully implemented.
    We continue to be deeply concerned about the increase in 
interethnic violence in the south and its devastating effect on 
local communities. We must all increase our efforts to mitigate 
these threats to security and stability, to create an 
environment for a peaceful referenda for a transition to the 
post-2011 period.
    In keeping with the third objective in our strategy, the 
United States continues to work with the Sudanese authorities 
and international community to keep non-state actors who might 
threaten our interests and terrorist organizations from 
developing a foothold in Sudan. We will ensure that U.S. 
efforts in Sudan enhance our capacity to protect American lives 
and American interests around the globe.
    Finally, as part of our U.S. strategy on Sudan, senior 
officials from the interagency will meet in early 2010 for the 
first in a series of quarterly interagency reviews designed to 
assess conditions on the ground, to determine whether progress 
or backsliding has occurred, to agree on whether incentives or 
pressures are warranted.
    The United States has a clear obligation and an interest to 
lead the international efforts for peace in Sudan. Failure to 
accomplish our objectives in Darfur between the north and the 
south and on the counterterrorism front could result in more 
suffering for the Sudanese people, further regional instability 
and in possible safe havens for international terrorists. We 
just can't afford to fail.
    Together the United States and its partners are committed 
to creating an environment in which the parties themselves can 
bring peace to Sudan. We have no option but to succeed. And 
working together with all the parties, with our international 
partners, I believe we can succeed.
    Mr. Chairman, members of the committee, distinguished 
guests, thank you again for your leadership and for your 
support. I look forward to answering your questions about the 
critical challenges that we all face in Sudan. Thank you.
    [The prepared statement of General Gration 
follows:]<greek-l>Scott Gration deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Well, let me thank you very much, General 
Gration. Like I said, I appreciate the hard work that you are 
putting into this effort, and we appreciate your testimony.
    Let me begin by asking a couple of questions. First of all, 
the administration's long-awaited Sudan policy is fully 
implemented and provides a framework to achieve a stable 
democracy and a lasting peace in Sudan. At the center of this 
strategy is a policy of engagement with necessary benchmarks 
and credible pressure to ensure accountability. However, 
implementation of the strategy will be critical in moving 
forward.
    So my question basically is, What are the specific 
indicators of progress being used in the U.S. policy and what 
are the precise criteria to be used for evaluating them? We 
have heard that there are incentives and also disincentives, 
and so we really would like to know the way that there will be 
a criteria for the evaluation of them since this is the center 
of the strategy.
    General Gration. Yes, you put your finger on it in that 
implementation is the key. Agreements without implementation 
are really no good, and so this policy seeks to ensure that 
agreements made between parties are implemented fully. We 
started with the CPA. When I took on this job, we had 12 areas 
where we had differences of agreements between the parties. We 
have been able to close on 10 of those 12. The remaining one is 
the census and therefore the election and then the referendum, 
and we seek to get an agreement on those two.
    When we get agreements, we will turn those agreements into 
benchmarks. In other words, we have gone through all the 
decisions and all the agreements that we have been able to make 
and that are codified in the CPA and that we will continue to 
make in Darfur discussions that will come out of the Doha 
process, and we will turn these into objective statements: Who 
is doing it, what they are doing, when it needs to be done by 
and what are the performance standards. We have done that 
already with the CPA. It is in the form of a stoplight chart, 
but we are taking it to the next level.
    In other words, when suspenses are missed, these are 
identified on a weekly basis to both parties and to interested 
parties on the outside. We will continue to do this. But let me 
just explain that this strategy will not succeed unless we have 
those benchmarks and we are able to objectively track them with 
changes of behavior and changes of condition on the ground, and 
that is what we are doing right now. We are trying to ensure 
that through the U.N. and through other mechanisms that we are 
able to see verifiable, unreversible changes on the ground.
    We have a philosophy that is a little bit different than 
the Cold War when it was trust and verify. Ours is verify, then 
trust. We will take a look on the ground, we will verify the 
changes in behavior, verify the changes of condition. And then 
based on that, we will make a determination whether more 
pressures need to be applied or whether incentives need to be 
applied to encourage more of that kind of behavior if it is 
positive.
    And so that is what the policy does. It takes all the 
agreements, turns them into objective statements. It looks for 
measures and monitoring ways that we can verify the changes on 
the ground, whether positive or negative or even just standing 
still. And then we will work through the interagency process to 
ensure that senior leaders can make the determination whether 
we need to put pressures or incentives, and this will be done 
obviously as we do everything in consultation with Congress.
    Mr. Payne. All right. My time has expired. Let me just ask 
one quick question: Is there any plan for the IDPs in Darfur 
and in Chad? Is the government discussing any plan of return? 
Because I have heard a lot of things, but no one has ever 
talked about when we will start to have people return home.
    General Gration. We have heard discussions about planning 
for return, but our position is, and it is a position that we 
have worked in conjunction with IOM, with U.N. agencies that 
are in the field that are working on a day-to-day basis with 
the 2.7 million people in IDP camps, we will only support a 
return when it is voluntary, when the conditions in the places 
that they want to return to, whether it be their homes or 
whether it be another location, that the conditions are stable 
and secure and safe enough for them to return in a sustainable 
way.
    We also want to make sure that it is done where their human 
rights are protected and with dignity. And we also want to make 
sure that it is done in a compassionate way. As many people 
have to return to places where they lost their families, where 
they lost their crops, where they lost their cattle, where they 
had their houses burned down, there is going to be an emotional 
element, a psychological element that we have to consider. We 
want to make sure that as they go back that they can do it 
voluntarily and in conditions that will be sustainable and 
conditions that will allow them to live a life that is 
significantly better than they are living today.
    Mr. Payne. Thank you very much. At this time, we will ask 
Senator Brownback for questions.
    Senator Brownback. Thank you very much. Mr. Chairman, again 
thank you for this extraordinary privilege to be here with you 
on this panel.
    General Gration, thank you for joining us, and it is a 
tough job that you have, but I am terribly troubled by the 
situation. President Bashir, I guess I should ask you, he has 
participated in a genocide in Sudan, is that correct?
    General Gration. Yes, sir. He was the President of the 
country during the time that genocide took place and therefore, 
he would have participated.
    Senator Brownback. And so he has led the genocide in 
Darfur.
    General Gration. His government was responsible for that, 
and he was the leader of the government. Therefore, he would 
have led it.
    Senator Brownback. And President Bashir is an indicted war 
criminal by the ICC?
    General Gration. He is.
    Senator Brownback. Has the United States Government been 
negotiating, dealing or otherwise associating with any 
individual from Sudan who has been directly implicated in 
committing genocides or crimes against humanity?
    General Gration. Do I understand that you are asking, are 
we dealing with people that have been involved in the genocide 
or crimes against humanity?
    Senator Brownback. Have we been negotiating, dealing or 
otherwise associating with any individual from Sudan who has 
been directly implicated in committing genocide or crimes 
against humanity?
    General Gration. I have never met with President Bashir and 
we don't have plans to meet with President Bashir. There are 
people that we negotiate with that are part of the NCP that are 
part of that government. That is the only way that we have been 
able to reach agreements on the Comprehensive Peace Agreement. 
It is the only way we have been able to reach agreements on 
humanitarian assistance in Darfur. It is the only way we have 
been able to reach agreements on the Chad-Sudan border 
conflict, agreements in Doha. And we are going to have to 
continue to have engagement not for engagement's sake but to 
save lives and to move the ball forward in Sudan.
    Senator Brownback. Have any of those individuals been 
involved directly or indirectly in committing genocides or 
crimes against humanity?
    General Gration. I don't know that directly. I understand 
that some of the people were in the government at the time, 
especially between 2003 and 2005. But I have no direct 
knowledge of their direct involvement in it.
    Senator Brownback. They are in the leadership in the 
government in Sudan? Individuals you are negotiating with or 
dealing with?
    General Gration. I am negotiating with individuals that are 
in high-level positions in the Government of Sudan.
    Senator Brownback. You are dealing with a government that 
is conducting an ongoing genocide, is that correct?
    General Gration. I am dealing with the government.
    Senator Brownback. That is conducting an ongoing genocide 
in Sudan?
    General Gration. I am dealing with the government in an 
effort to end the conflict, in an effort to end gross human 
rights abuses.
    Senator Brownback. I understand the objective. I am asking 
you, are you dealing with a government that has conducted an 
ongoing genocide in Sudan?
    General Gration. I am dealing with, as I said, I am dealing 
with the government in Khartoum of Sudan.
    Senator Brownback. Which is currently conducting a genocide 
in Sudan, is that correct?
    General Gration. That is correct.
    Senator Brownback. Should we have dealt with Charles 
Taylor? He was an indicted war criminal.
    General Gration. I have not been involved with Charles 
Taylor.
    Senator Brownback. Should we have negotiated with Serbian 
leader Karadzic, the Butcher of Bosnia?
    General Gration. I have not been involved in that 
situation.
    Senator Brownback. Let me get to the specifics then in 
this, and this will be my last question. I think it is obvious 
what is taking place. Despite U.S. efforts to broker a 
settlement on key outstanding issues regarding CPA 
implementation, the process appears deadlocked, due in no small 
part to the National Congress Party's obstructionism. At what 
point would the United States follow through on its promises to 
increase pressure on the NCP to make the necessary concessions 
to pass the Southern Sudan Referendum law, reform the National 
Security law, fully implement the Permanent Court of 
Arbitration's decision on Abyei and fully implement other 
elements of the CPA?
    General Gration. I have been involved in discussions and 
negotiations with the parties, and it is very clear that they 
both have positions that they are maintaining to both in the 
south and in the north. And we have been helping both sides 
come to a compromise on those issues so that they can get a 
solution on the elections, they can get a solution on the 
referendum, they can get a solution on public consultations and 
on the Abyei issue and in addition to the National Security 
law.
    I anticipate that these will be resolved in the near future 
so we can move on and start working on the post-CPA issues of 
citizenship, the north-south border and resource-sharing, 
things like grazing rights, water rights and oil.
    Senator Brownback. Thank you, Chairman.
    Mr. Payne. Thank you very much, Senator. Ms. Lee.
    Ms. Lee. Thank you very much. General Gration, I am 
somewhat encouraged by your new policy that places a special 
emphasis on international cooperation and multilateral action 
in solving Sudan's pressing humanitarian and political issues. 
However, as it relates to genocide, I think those are the 
issues that are paramount and foremost in all of our minds. And 
I think we have talked a little bit about this in terms of 
China being one of the key players in that regard at least in 
Sudan and the leverage that China holds.
    Given that China holds unparalleled really economic and 
political leverage over the Government of Sudan, I took the 
opportunity to write to President Obama in advance of his 
recent trip to China, encouraging him to secure the Chinese 
Government's full support and assistance in accomplishing the 
goals of this new Sudan policy. I haven't heard any reports, 
however, that indicated whether or not the issue was discussed 
on the President's visit.
    Can you tell me whether or not and to what extent the 
United States has reached out to China for support in terms of 
our policy in Sudan and also in support of helping us in the 
genocide in Sudan? Also the League of Arab States in seeking 
their support in not only implementing the new policy but also 
ending the genocide.
    I have had the opportunity like many members here to meet 
with President Mubarak. We met with the President of Algeria 
and other leaders and raised this concern in terms of them 
taking a hard stand against what is taking place in the Sudan. 
So far we have seen some results only in the humanitarian 
needs. I know that Egypt is helping in a tremendous way with 
the hospital and clinics and what-have-you. But I haven't seen 
the kind of response by China or any of the League of Arab 
States saying look, this genocide must end or else we are going 
to also impose sanctions and do some other things that may make 
it even more difficult for them to continue, for the Sudanese 
to continue with their disastrous efforts in killing people and 
in committing genocide.
    General Gration. Right. As you know, the centerpiece or one 
of the pieces of the strategy is the multilateral commitment 
and working with our international partners to achieve our 
collective goals in Sudan, and we have set up many different 
mechanisms to allow us to do that more efficiently.
    The first is what we call the Envoy Six. It is the P-5 
countries that have special envoys in addition to the European 
Union, who has a special envoy. We started meeting together. We 
said we were going to meet every 6 months. We are now meeting 
about every 2 months, and it is probably going to go down to 
every 1 month. As part of that group, Russia and China, along 
with France, the UK, the United States and the AU, we get 
together.
    In terms of China specifically, Ambassador Li Chengwen is 
their representative or their envoy on Sudan issues. We go back 
to the time when I was flying with the Kenya Air Force and he 
was assigned to the embassy in Kenya. We have had a 
relationship that allows us to have frank and open 
conversations on issues.
    The interesting thing is that China and the United States 
share the same objectives when it comes to security, when it 
comes to stability. They need security and stability to protect 
their investment of $4.5 billion in the oil industry. We need 
the security and stability to protect the Sudanese people and 
the future of Sudan.
    And so we have been able to work together in ways to help 
promote stability and security. We have been able to work 
together on humanitarian projects, to synchronize these better 
so that we don't build two roads next to each other a hundred 
miles but we put those end to end.
    Ms. Lee. Sure. General Gration, let me just ask you before 
my time is up, though, have you communicated to the Chinese 
Government the fact that this cooperation that you are listing 
is wonderful, it should happen, it should have happened a long 
time ago, but if the carnage doesn't stop, if the genocide 
doesn't stop, have you communicated to the Chinese Government 
that they should join us in imposing sanctions and take a hard 
line against what is taking place as a next step?
    General Gration. We have. We have indeed. And the President 
did bring it up with President Hu. They discussed Sudan, they 
discussed areas of cooperation. I don't have all the details, 
but I do know that it was a centerpiece of the discussions in 
Beijing.
    I have also traveled to Beijing and had discussions with 
the people over there, and we have made these points very 
clear. And while there are significant areas of strategic 
cooperation, there are areas where we differ on the tactical 
level, on arms and those kinds of things. And we are continuing 
to work through those issues. But as you know, these are 
bilateral issues, and we will continue to influence them as we 
can.
    But I will tell you that the spirit of cooperation is 
significant, and we are doing the same thing with periphery 
states and Arab states. In addition to the Troika and the 
contact group, we have frequent meetings with the Arab League, 
with Tripoli, Libya, with Chad, Egypt, Ethiopia, EGAD 
countries. I am leaving possibly tomorrow to attend the 
ministerials with the EGAD countries. I will be going to Egypt 
and to Libya before Christmas holiday.
    These things we continue to do because, like you, we know 
that this solution is not one that involves just America. It is 
one that involves the international community and the broad 
international community. Everybody has to be part of the 
solution to end the conflicts and to promote peace and 
development.
    Mr. Payne. Thank you very much. Mr. Smith, our ranking 
member.
    Mr. Smith. Thank you very much, Mr. Chairman, and thanks 
for convening this very important hearing. I just want the 
record to show the only reason I was late, was because Sudan is 
one of the highest priorities for me, the head of the Central 
Authority for Brazil, which is the agency or entity that 
adjudicates Hague cases where children have been abducted, was 
in town. Yesterday we had a hearing on that, chaired very ably 
by Mr. Wolf on the Tom Lantos Human Rights Commission. And I 
have been working on that issue with David Goldman, a man we 
both know very well, from New Jersey, whose son, Sean, was 
kidnapped 5 years ago, over 5 years ago. We are hopefully 
coming to a positive conclusion soon.
    But this is the person who is in charge of that government 
entity that adjudicates those cases, so what was a \1/2\-hour 
meeting turned into 1\1/2\-hours. So I do apologize, General, 
for not being here for your opening, but that in no way 
reflects my deep and abiding concern for Sudan, having been to 
Mukjar and Kalma Camp myself, and having met with Bashir for 
the better part of almost 2 hours in a very real argument with 
that man, this is before he was indicted for war crimes. Sudan 
is at the top of my list, as it is the chairman's, in trying to 
bring some peace, reconciliation and justice.
    Just as you may know, General, as ranking member, I have 
asked no less than four times for a classified briefing about 
the annex of the menu of incentives and disincentives that were 
announced as part of the new strategy on October 19. We asked 
on October 21, 22, 29 and November 4 and again on the 30th, so 
that would be five times, to have a classified briefing to 
weigh what it is that this new policy really entails.
    As the Secretary of State pointed out, this is classified. 
But it seems to me the fact that the ranking member still can't 
get this information, I don't think our distinguished chairman 
has received it either, is very, very troubling, because like 
Mr. Brownback, like Mr. Wolf, like my colleagues on both sides 
of the aisle, this is not a passing concern. This is a deep and 
passionate concern for each of us. And we want to know what the 
strategy is, in a closed session or in a classified briefing 
here or downtown, we will do it anywhere, anytime.
    So I reiterate that request. I really want to hear what is 
being contemplated here. So please honor that request as soon 
as possible, today, tomorrow, any day. Just name the day, I 
will be there and my colleagues will be there as well.
    Likewise, we made multiple requests for detailed briefings 
on the reported arms transfers from the regime in Khartoum to 
militias in southern Sudan. We held a hearing that Mr. Payne 
will remember so well, where we heard about very troubling 
numbers of AK-47s and other weapons that are being deployed 
south, raising the specter of perhaps renewed hostilities that 
we need to get a better handle on at least as policymakers. We 
don't know the numbers. So I reiterate that request as well.
    Finally, I would ask unanimous consent that my statement be 
made a part of the record, I don't think it would be 
appropriate to go back and go through that.
    Mr. Payne. Without objection.<greek-l>No statement received
    [The information referred to follows:]

    ********** COMMITTEE INSERT ********** deg.

    Mr. Smith. But I would join with my colleague, Ms. Lee, 
in--I was a signer of the letter that went down to the 
President before his trip to Beijing, and we have had hearings 
in this room time and again about, remember, we were calling it 
the genocide olympics. And in the run-up there was leverage 
that was not used with regards to China's singular role in the 
genocide first in southern Sudan where 2 million people were 
butchered and killed and the upwards of 450,000 or whatever the 
current number of atrocity is of dead in Darfur. And to the 
best of my knowledge, we saw nothing about that information 
being conveyed to Hu Jintao or anyone else during that Beijing 
visit--and maybe you can tell us and elaborate on whether or 
not the President raised that.
    It seems to me that the arms supplier makes it all possible 
to wage genocide, if you want to stop it, you go to the source. 
It is not just in Khartoum where all of this is emanating. It 
is being aided and abetted by the Chinese Government.
    And we have raised this, Mr. Payne and I, over and over 
again in every fora we could possibly think of and especially 
with the Chinese. Mr. Wolf and I were in Beijing right before 
the Olympics, and that was a major part of our dialogue with 
our Chinese interlocutors. But if it is not backed up by the 
President of the United States, it seems to me our thoughts 
ring a bit hollow.
    And I would add on human rights in general, and I don't 
care if it is a Democrat or a Republican in the White House, 
human rights transcend all parties. They have no party. When 
you are being victimized, it doesn't matter if you are a 
Democrat or Republican in terms of who is advocating or not.
    We had had a hearing right before the President left about 
the horrific one-child-per-couple policy, and we had a lawyer, 
Jiang, who bravely testified at that hearing and another 
hearing about due process rights and about this crime against 
women called forced abortion. We asked the President on that 
case as well to raise the issue and to provide protection for 
the lawyers, the human rights defenders like Jiang who were 
arrested, were interrogated. We believe that now he is under 
very, very tight surveillance.
    But it is part of a seamless lack of intervention. What 
happened on Darfur? Did the President raise the issue? And I 
mean robustly. Hopefully he did it in some way, hopefully he 
did it in a very profound way, because China can turn off the 
spigot of funds and monies that is enabling this terrible 
killing field.
    General Gration. Thank you. In terms of the classified 
briefing, I am available any time to do that. And I don't know 
of the ``annex,'' but I do know that there are working papers 
that we used as we deliberated, as we came up with a menu of 
things that we could consider in tiers of options on the 
political, economic, military side, and I would be happy to 
share those with you.
    Mr. Smith. Well, I mentioned the annex. If I could 
interrupt.
    General Gration. But there is no annex.
    Mr. Smith. Well, the Secretary of State had said that.
    General Gration. Okay.
    Mr. Smith. She said they are part in fact of a classified 
annex to our strategy and we are now seeing the outline of 
today.
    General Gration. Well, I am telling you that I have never 
seen one.
    Mr. Smith. Okay.
    General Gration. The only thing I have seen is the 
classified working papers that are part of the NSC. But I would 
be happy to tell you anything that is in those documents.
    Mr. Smith. I appreciate that.
    General Gration. That is no problem at all.
    Mr. Smith. On the China?
    General Gration. On the China, I was not with the President 
on this trip. All I know is that the issue was raised, that the 
two Presidents had in-depth discussions on Sudan and on the 
issues surrounding Sudan. I don't know specifically about what 
was raised in terms of the moral issues and that kind of thing, 
but I can try to find out.
    Mr. Smith. Well, with respect, and asking the indulgence of 
the chairman, I read the joint statements that were made by 
President Obama and Hu Jintao. I read them very carefully. And 
my concern is, where was Darfur? Where was human rights in 
general other than an oblique mention buried in the body of the 
text? If you could get back with specifics about what was 
raised and in what manner, that would be very, very helpful, 
because private diplomacy can only go so far when there is a 
genocide occurring. I hope he did mention it, but I hope he 
mentioned it in a way that was really significant.
    Mr. Payne. Thank you very much. Mr. Miller.
    Mr. Miller. Thank you. General, it should not be a great 
surprise that there are continuing disagreements about the 
preparations for the national election in April, about polling 
procedures, voter registration, but more broadly about whether 
there are going to be real elections.
    Do you think the elections, the 2010 elections, are going 
to take place? Do you think that they are going to be credible, 
that they are going to be free, fair and transparent? What are 
we doing to make sure that happens? What are we doing to 
prepare for the very distinctly possible outcome of elections 
that are not credible, that are a fraud, that are a sham? What 
are we doing to make sure that those are not treated as 
legitimizing a genocidal government?
    General Gration. Yes. We believe that the spirit of the 
CPA, the letter of the CPA tells us and gives us our mandate to 
have elections in Sudan. This is part of the political 
transformation that we are seeking, that the CPA sought.
    The first step was to get an election law that allowed us 
to proceed. We have been able to do the registration piece, and 
as you probably know, we are up to 60 percent, 7.4 million 
people overall in the north in Darfur, just under 50 percent, 
with 1.79 million people registered, and in the south we have 
achieved 60 percent, with 2.5 million people registered. That 
allows these Sudanese the option of expressing their will in 
the election, and I think that is very important.
    We have seen that while there have been irregularities and 
while there have been things that we don't like, we have seen 
that the government has been responsive in trying to help the 
situation get better. In the very beginning there were only 
1,500 people that were registrars. There weren't enough books. 
When the international community pointed that out, they 
increased the number of registrars, increased the number of 
books, to help more people get registered.
    And while it is not perfect, we have to remember that this 
is the first time in 24 years that they have had elections. We 
also have to remember that in the last election only 5 million 
people were registered as opposed to the numbers that we have 
already, 11.96 million people registered already for this 
election.
    So yes, I think that there is an opportunity for us to work 
on political transformation through this election. There are a 
lot of things that have to continue, though. We have to get 
sorted out the census so we can get an agreement between the 
two parties about the legislature, because it is only by having 
the elections down to the legislative level that we can, number 
one, have a legislature that has been elected by the people as 
to one that has been appointed.
    Number two, we have to make sure that all the other pieces 
that go into an election to help make it free and fair, that we 
help with instituting these processes. So it is not only the 
law, it is not only this registration piece, but it is voter 
education. It is making sure that there is security. It is 
making sure that there are all the administrative pieces of 
putting the ballots and getting them to the right places at the 
right time. And then there is the whole piece about tabulation 
and in a way that is clear.
    And so what we want to do is work with the international 
community to have monitors at the right place. And the Carter 
Center has increased its people from 12 to 30 already for the 
registration, and we are working together with the 
international community to bring in more.
    We are also working with the National Election Commission 
to ensure that they are bringing in their monitors and that 
this system is as free and as fair, as credible as we can get 
it. Why? Because it is part of the transformation process. But 
number two, we will start next year in July to start 
registering people--I shouldn't say we, but the Sudanese will 
in the south and in Abyei for the referendum, in the south for 
self-determination and in Abyei to decide whether they stay 
with the north or go with the south if the south chooses 
independence.
    Many of these same procedures in terms of the law, in terms 
of the preparation, in terms of free, fair and credible, in 
terms of counting and security, are the same things that we are 
going through the processes now for, we are going to have to go 
through it again. And the worst thing that I can think of is at 
the end, in January 2011, we say to the people of southern 
Sudan this referenda wasn't free, it wasn't fair, it wasn't 
credible, therefore it is invalidated.
    We need to do everything we can now and then to ensure the 
people of Sudan not only get to elect their leaders, not only 
get to elect their legislators, but the people in the south 
have an opportunity to express their will in a way that is 
free, fair and credible. We are working that process. This is a 
process.
    And if you take a look at each of the post-conflict 
countries as they have tried to do elections, this has been 
tough. And when you don't have a history of legislative 
process, election process, as Sudan doesn't in that we have had 
a break since 1986 until now and we have had all the conflict 
and we are just coming together, this is a tough process.
    But I have got to tell you the United States and the 
international community is committed to doing everything they 
can to ensure that the process will result in a situation where 
individuals can express their will and that their will is fully 
counted and implemented.
    Mr. Payne. Thank you very much. We have a vote coming up. 
We have three members who have not asked questions. We will 
give each of them 4 minutes. That will take 12 minutes. That 
will give us plenty of time to get over to this 15-minute vote. 
So at this time, Dr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. General Gration, what 
benchmarks is the administration using to measure the success 
of the new Sudan strategy? What are the incentives and 
disincentives? If you can't divulge them now, will you allow 
Congress access to the classified annex of the policy review?
    General Gration. Yes. I am happy to come over here any time 
at a time that is convenient for you all to discuss the working 
papers and the policy deliberations that we went through, 
recognizing that this is just a menu of options that are 
available to decision makers as we take a look at what we can 
do to pressure and what we can do to incentivize actions on the 
ground. As I explained earlier, we are looking at conditions 
changing on the ground. We are trying to do this in an 
objective way, and we will continue to work through this 
process so we have objective benchmarks that we can present.
    The first meeting that we have planned is going to be 
shortly after the New Year where we will be able to present 
these conditions on the ground, that it will be up to 
policymakers in the executive branch, and we will also do this 
in consultations with Congress to make sure that we either 
increase pressures in those areas where there has been 
backsliding or no progress and incentivize in those areas where 
we made progress.
    Mr. Boozman. I am sorry, I don't mean to interrupt, but we 
have just got a second. You mentioned progress, and I guess 
what I would like to know is what specific progress that we 
have to show that the engagement policy is working. The 
situation on the ground in Darfur has not substantially changed 
since the administration took office. Insecurity in the south 
is rising and there is no sign of an imminent peace deal. What 
has the NCP given us?
    General Gration. I would take issue with all those. I think 
we have made a lot of changes. When I took over, there were 1.2 
million people that faced a crisis because of 13 NGOs being 
thrown out. We have been able to fix that. We made it through 
the rainy season without having those losses.
    We have been having significant movement in terms of armed 
group unification. The Chad-Sudan border issue has gone from 
where we had rebel groups in N'Djamena, proxy people in 
Omdurman, we are now in a situation where Kamal Harazi is going 
over to N'Djamena, and we are expecting the Minister of Foreign 
Affairs, Faki, to come to the Sudan.
    These are significant changes. If you just take a look at 
the numbers in June of this last year, and I recognize that 
they are low, there were 16 excess deaths. None of them were 
Fur people. It was Arab-on-Arab, plus two policemen and two 
others.
    My point is that things are changing significantly, things 
are improving, but there is still an awful long ways to go. We 
have 2.7 million people living in abhorrent conditions. We have 
insecurity. We have gender-based violence. This has to change, 
but we are making progress.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Payne. Thank you. Ms. Woolsey.
    Ms. Woolsey. Thank you. General Gration, when the Sudanese 
Government unilaterally kicked the humanitarian NGOs out of the 
country, the situation disintegrated rapidly for the people in 
need. The situation was already dire for women and children. So 
what is the situation now regarding women and children, 
regarding health, regarding delivery of emergency food sources?
    General Gration. By working with the U.N., existing NGOs 
and by the Sudanese Government allowing four major new NGOs to 
return to Darfur, we have actually gotten up to the capacity we 
had before. That said, we are doing it with emergency 
conditions, we are doing it with stopgap measures. It is not 
sustainable. We are working on fixing that.
    You are exactly correct in that there were gaps before the 
NGOs were pushed out; there are still those gaps. There are 
certain areas where we have not gotten up to speed, and these 
include the protection aspects and some of the aspects that you 
have talked about where we are really taking care of the women 
and the children.
    But in terms of health, in terms of food, water and 
sanitation, we are meeting the basic needs. But you are exactly 
right; we need to push a lot harder to work on protection and 
some of these other issues.
    Ms. Woolsey. Will that push depend upon the free, fair, 
credible elections, or can it happen as part of that?
    General Gration. It is happening right now, ma'am. We are 
working on an ongoing basis to try to fix this problem. And I 
would say it is unrelated to the election.
    Ms. Woolsey. So regarding the election, I guess this is 
more of a rhetorical question: What if it doesn't turn out to 
be fair, free and credible? Where will the United States draw 
the line? Or will we compromise, thinking we have put in all 
the effort that we possibly could, did the best we could and 
tried but failed? I mean, will we accept a criminal government?
    General Gration. We are now working with our international 
partners on these very same issues. The envoys, the contact 
group, we are discussing what is going to be our approach 
because we are going to have to be doing a lot of the funding. 
And the question is, When do you stop funding something that is 
not going to be working out? We are committed, though, to doing 
everything we can to ensure we put in these processes. And 
ma'am, it may not only be for this election, but it may be for 
subsequent elections.
    And so what we are trying to do is put into place processes 
and procedures and a way of doing things now so people 
understand that they can vote, that they can make a change, 
that they can express their will through democratic means. And 
this political transformation is going to be a process. And it 
may not be something we can do between now and April, but it is 
certainly something that we have to try to do, and then it is 
something that we have to continue to build on through the 
referendum and through subsequent elections.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you.
    Mr. Payne. Thank you. Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. I am just going to 
quickly make the observation here that when you have a 
manufactured crisis and you run, as Bashir did, you run all the 
aid groups out and then you let a handful of them back in with 
a set of new conditions, as the group Enough did, what to do 
about Sudan now? They say they don't have access to large areas 
of Darfur anymore and those that do have access to vulnerable 
populations no longer publicize their assessments for fear of 
expulsion. So I just want to get that into the record in terms 
of the other side of this argument.
    I wanted to make the point and come back to the fact that 
the Lord's Resistance Army is on the run. We have a commander 
who recently surrendered. In interviews he has noted that 
Joseph Kony has the intention to move his forces into Darfur to 
link up with the Sudan armed forces. He wants those armed 
forces to give him logistical support. In the past they have. I 
remember when they were patching up his soldiers in hospitals 
and sending them south and giving munitions to them. So the 
Islamist government in Sudan is really the last lifeline, as it 
has been the lifeline for years, but it is now the last 
lifeline for Kony.
    Let us cut this off and end Kony's terror across Africa. I 
just ask you, how involved today is the Sudanese Government and 
how do you intend to bring pressure to get that lifeline cut 
off?
    General Gration. First of all, I would say that in terms of 
the NGOs moving around Darfur, I meet with them all the time, I 
just met with them last week in N'Djamena and Al Fashir, and it 
is really a security issue as opposed to a restriction issue. 
And if we could fix the security issue, which we are working on 
right now very hard to do at the local level with the 
Bandistri, with the Janjaweed autonomous with our militia 
groups, if we can get these things fixed, that will solve a lot 
of the NGO problems.
    In terms of the LRA, we agree with you. There is no reason 
that Joseph Kony should be allowed to be wandering around and 
be alive and continuing the Lord's Resistance. It is abhorrent. 
I used to live in that area between Aba and Adi-Faraj, and the 
number of people that are being raped and houses being burned 
down and that kind of thing is unbelievable. And the fact that 
it is not an absolutely international outrage is disgusting to 
me.
    That said, I have been working with the Sudanese Government 
in Khartoum, and I think that they would agree with you that 
Joseph Kony has to stop. We cannot find links, and it has been 
reported to me, and if you have the links that we can go in, I 
cannot find any links right now of the Sudanese Government to 
Joseph Kony. And if we can find them, obviously those will be 
things that we will put pressures in, but there is nothing that 
we can find right now.
    Mr. Royce. I would just point out that his commander who 
surrendered says they were backing us in the past. So I don't 
know about the moment, but he is telling his troops if you get 
out of the encirclement, this is who you surrender to, this is 
who will work with you. I just bring it up.
    I am the ranking member of the Terrorism Nonproliferation 
and Trade Subcommittee. We had a hearing 2 weeks ago in which 
one witness testified, and I am going to use his words here, 
``The Jihadist aim is to thwart the international community in 
Darfur and reignite a holy war in southern Sudan.'' I would ask 
if you share any concerns about the reputed ambitions of 
Khartoum. From my standpoint, I remember pretty vividly 
Khartoum's backing some years ago of Osama bin Laden, so I 
don't give the benefit of the doubt to Bashir. So give me your 
assessment, General, if you would on that.
    General Gration. Yes. Obviously we have our eyes wide open. 
We are looking for any indications that would lead us to 
believe that that is happening. Right now, though, our mandate 
is to save lives, to implement the CPA, to ensure that the 
conflict stops in Darfur and that we reset the picture on the 
CT front. We are trying to do that. And if we have indications 
that there is a jihadist movement that is disrupting the south, 
obviously we are going to apply a lot of pressure and speak out 
very forcefully against it. This cannot be tolerated, and we 
won't.
    Mr. Royce. Thank you, Mr. Chairman. Thank you, General.
    Mr. Payne. Thank you very much. Our ranking member will 
have 30 seconds to intervene.
    Mr. Smith. Thank you. General Gration, let me ask you, at 
our July 29 hearing, SPLM, Secretary General Pagan Amum, 
testified that it had been documented that the NCP had supplied 
79,000 AK-47s to the civilian population in the south. The next 
day, at a Tom Lantos hearing, we heard that it was indeed 
79,000 that had been distributed, but a total of 200,000 
additional AK-47s had been ordered.
    Do those numbers comport with our assessment and how many 
of those 200,000 have been distributed since the 79,000, if 
that number is accurate?
    General Gration. These are questions that I continue to ask 
UNMIS, and we are continuing to try to get our arms around this 
issue. There are reports of increased ammunitions. There are 
these reports of guns coming through. We have not found 
linkages to the Khartoum Government at this time.
    Mr. Payne. Senator, we have about 1 minute more if you 
would like to make a concluding statement.
    Senator Brownback. Just that I hope we can work with the 
administration and stop this complete loss of moral authority 
if we negotiate with a genocidal government. And I appreciate 
very much the chance here to work, but I more would appreciate 
the chance for the administration to reconsider what steps it 
has taken here. It is a massive step that I think undermines a 
great deal of our authority that we have had around the world 
in dealing with genocidal-type regimes or people that conduct 
war crimes. I really think I would hope you would reconsider 
that.
    Mr. Chairman, thank you for allowing me to be here today.
    Mr. Payne. Well, let me thank our witness. We have been in 
session now for, in our 12th month. That is one-half of a 
congressional term, and this has been frustrating, as you know, 
an issue that many of us feel very deeply about, very emotional 
about. And so we first of all appreciate you getting here. We 
would hope it would have been sooner than later, and that is 
where a lot of pent-up frustration is.
    You can see this is an issue that is bipartisan and both 
Houses take very seriously. I know that the President and you 
take it very seriously. But when you are kept in the dark so to 
speak, you really don't know. And we knew you were working 
hard. It is just we didn't know what you were doing. Now we 
have gotten some light, now we can have some evaluation. As you 
can see, there is still a lot of skepticism and a lot of us 
that want to see Sudan come into the 21st century, and we don't 
see it yet.
    But let me once again thank you for coming. We will 
adjourn, recess this hearing. There is no time left, but we 
will be back. There are four votes. We should be back in \1/2\-
half hour or less.
    With that, I would like to thank our Special Envoy for 
coming. And this portion of the hearing is complete. Thank you.
    The next three witnesses will be part of the official 
hearing, and our fourth and final witness, we will then turn 
the hearing into a briefing since, as you know, House Rules 
indicate that official hearing, you may not have officials of 
governments. However, they can brief the Congress. And so it is 
just a technicality. They will all remain at the desk and they 
will all be questioned at the completion of the testimony.
    Our panel of witnesses here will begin with Dr. Randy 
Newcomb. Randy Newcomb is the president and CEO of Humanity 
United, one of the world's largest private donors in the field 
of international human rights. Dr. Newcomb leads the 
organization's long-term strategy to stop and prevent mass 
atrocities and modern-day slavery.
    He is a regular speaker on international human rights 
issues and has appeared as an expert commentator in the media. 
Previously Dr. Newcomb was vice president of the Omidyar 
Network, a philanthropic investment firm. He was a fellow at 
the Center for Social Innovation at Stanford University and an 
international development fellow at the University of Bath in 
England. He holds a doctorate degree from the University of San 
Francisco, a master's degree in development and economics and 
cross-cultural studies at the University of Bath in England.
    Our next witness is Mr. Enrico Carisch. Mr. Carisch, former 
coordinator for the United Nations Panel on Experts on Sudan. 
He has served on expert panels of the United Nations Security 
Council on Somalia, Liberia, DRCN and Sudan, where he has 
investigated financial aspects of arms embargo violations, 
money laundering and natural resource diversions for conflict 
funding.
    He has advised the Central Africa member states of the 
ICGLR in their effort to establish effective certification and 
control mechanisms for their precious and semiprecious metals 
and their timber resources. Prior to his work in Africa, Mr. 
Carisch worked as an investigative print and TV journalist.
    Last but certainly no stranger and not least, we have Mr. 
John Prendergast. Mr. Prendergast is the co-founder of the 
Enough Project, an initiative here to end genocide and crimes 
against humanity.
    During the Clinton administration, Mr. Prendergast was 
involved in a number of peace processes in Africa while he was 
director of African affairs for the National Security Council 
and special advisor at the Department of State. Mr. Prendergast 
has also worked for Members of Congress, the United Nations, 
human rights organizations and think tanks. He has authored 
eight books on Africa, including ``Not on Our Watch,'' which he 
co-authored with actor Don Cheadle.
    With NBA stars he co-founded the Darfur Dream Team Sister 
Schools Program, which connects schools in the United States 
with schools in the Darfurian refugee camps. Mr. Prendergast 
travels regularly to Africa. He is a visiting professor at the 
University of San Diego and the American University in Nairobi, 
and he has done extensive work and continues to do so 
throughout Africa.<greek-l>
    Next we have Mr. Nhial Deng Nhial. He is a government 
official. As we indicated, the official meeting will end and we 
will go into the briefing. But Mr. Nhial Deng Nhial completed 
his early education at Camboni College in Khartoum before 
earning a law degree from the University of Khartoum in the 
early 80s. He is fluent in both English and Arabic. He was the 
chief Sudan People's Liberation Movement negotiator during the 
CPA talks, served in a number of senior positions in the SPLM. 
He is currently serving as Minister of Sudanese People's 
Liberation Army's Affairs, basically the Minister of 
Defense. deg.
    We will begin with our next panelist, Dr. Newcomb.

    STATEMENT OF RANDY NEWCOMB, PH.D., PRESIDENT AND CHIEF 
               EXECUTIVE OFFICER, HUMANITY UNITED

    Mr. Newcomb. Thank you, Chairman Payne, Ranking Member 
Smith, members of the committee for inviting me to testify at 
this critically important moment for the people of Sudan.
    Before I begin my remarks, I wanted to ask that my full 
written statement be made a part of the record if you wouldn't 
mind.
    Mr. Payne. Without objection.
    Mr. Newcomb. I would also like to bring greetings, Mr. 
Chairman, from Pam Omidyar. You have met with her several 
times, and she is disappointed to not be with you today but was 
traveling and was not able to make it. But you have been an 
inspiration to her and to all of our philanthropic work, so 
thank you so much.
    Mr. Payne. Thank you.
    Mr. Newcomb. Let me first commend the committee for holding 
this hearing. As you know, Mr. Chairman, there has never been a 
more critical time in Sudan's history than the present while 
the parties in Sudan and those in the international community 
use the next 18 months may make the difference between a hard-
won peace or a return to large-scale war.
    Humanity United, the organization that I run, was founded 
in 2005 on a simple premise. More than just representing the 
challenge to peace and security, we believe that egregious 
forms of violence and injustice, including those taking place 
in Sudan, threaten the very foundation of our common humanity.
    As a private philanthropic organization whose mission is to 
help in mass atrocities and modern-day slavery, our work on 
Sudan includes supporting advocacy efforts globally, providing 
grants to those working on to advance peace, as well as 
engaging in a range of other activities focused on conflict 
both inside and outside of Sudan.
    But as requested by the committee, I will focus my remarks 
today specifically on how the United States can support 
conflict resolution in Sudan by working with marginalized 
communities in the country and concentrating on the issues that 
the various parties within Sudan need to be resolving now at 
this moment in time.
    It is clear that the U.S. and international attention is 
focused on resolving the immediate issues. These issues are 
important, and yet settling them will address only some parts 
of the complex mosaic of center-periphery conflict in Sudan. 
Several high-risk flash points will still threaten a return to 
conflict. Time and energy should be devoted now to identifying 
such potential flash points and to promoting peace-building 
activities meant to reduce those local tensions which could 
trigger a wider conflict.
    Essential to these discussions are the transitional areas 
of Southern Kordufan, Blue Nile and Abyei, the so-called three 
areas, regions along the north-south border that fought with 
the Sudan People's Liberation Army during the civil war. The 
U.S.-backed 2005 Comprehensive Peace Agreement contained 
separate protocols for these fragile and high-risk areas, 
including establishing a parallel referendum for Abyei and a 
popular consultation process for the states of Southern 
Kordufan and Blue Nile, both of which will remain in northern 
Sudan beyond 2011.
    These processes are meant to allow local communities to 
express their views on the CPA and to enter into discussions 
with Khartoum on persisting grievances. While the popular 
consultations in Southern Kordufan and Blue Nile represent a 
potentially important step toward an inclusive governance 
arrangement, little has been done to prepare for the 
consultations thus far.
    Abyei itself is a microcosm of the issues facing both north 
and south with regard to the 2011 referendum. Abyei, as you 
know, sits on large deposits of oil, includes traditional 
grazing areas for northern pastoralist communities and was the 
scene of the most serious post-CPA violence to date.
    As you know, in May 2008, local tensions fueled by failure 
to implement the CPA led to violent clashes between government 
forces from the north and south, leading to widespread 
destruction and many deaths. I think the Abyei incident 
underscores the case with which a local conflict could trigger 
a broader war between north and south, collapsing the CPA 
altogether and with it any hope at all for peace.
    Work with the local communities in Abyei to prevent 
precisely this kind of violence has lagged dangerously behind 
other efforts. As the country that drafted the Abyei Protocol, 
the United States has a special responsibility here to ensure 
that agreements for Abyei are not just upheld but that they are 
successful.
    The need for local civil society engagement in a power is 
also dire in Darfur itself, as you know. As the member of the 
committee knows all too well, the terrible suffering in Darfur 
has led to displacement and fragmentation, with millions of 
Darfuris either in refugee camps in Chad or displaced from 
their homes. Sudan today boasts more displaced persons than any 
nation on Earth.
    Efforts to negotiate a Darfur peace deal have left critical 
local voices out of the process, making consensus among 
refugees and internally displaced persons outside of any part 
of that peace process. If we believe that we can achieve peace 
there, this can only be achieved if we help support and sustain 
the civil society actors that exist in Darfur and help give 
them a voice in this critical process.
    Mr. Chairman, before I conclude, I do want to raise the 
critical importance of thinking today about the challenges of 
tomorrow. Working for peace in Sudan must also remain focused 
on the 2011 referendum. If the choice for southern 
independence--and I think everybody would agree that all 
indications suggest that it might lead toward independence--
there are a number of issues that demand urgent attention. The 
risk of conflict I believe can be reduced. But in order for 
peace to prevail, international attention, coordination and 
diligence by the United States Government is needed on four 
pressing issues.
    The first, cross-border oil revenue sharing. Southern oil 
revenue is currently split 50/50 between Khartoum and Juba. 
Should the south vote for secession, the bulk of the oil would 
remain in the south, but the pipeline to support Sudan, the 
only means for the north to get their oil to market, runs 
through the north. North-south cooperation in the oil sector 
will require international support, guarantees and capacity-
building in the south.
    Number two, cross-border population movements. As mentioned 
in my previous comments on Abyei, there are populations on both 
sides of the border whose livelihoods depend on continued 
cross-border access either for grazing herds or for trade. 
Early agreement on continued cross-border access will reduce 
the likelihood of tensions, local violence and manipulation by 
outside forces.
    Number three, water rights. The White Nile flows through 
the south before meeting with the Blue Nile in Khartoum and 
flowing north to Egypt. Regional concerns about the 
implications of southern independence for the Nile River Treaty 
need to be addressed. Such discussions will also require robust 
international engagement to ensure that neighboring countries 
are confident in this outcome.
    And number four, status of the southern populations in the 
north. I think one of the most worrying scenarios around the 
secession of the south is the status of southern populations in 
the north, estimated to be between 1.5-2 million people. Most 
were displaced during the decades-long civil war and would be 
forcefully displaced back to the south or maybe subjected to 
violence.
    Mr. Chairman, Ranking Member Smith, members of the 
committee, these are complex and delicate issues. Yet we ignore 
these issues raised here at the peril of the Sudanese people 
and all those who care about the advancement of peace. Serious 
work must commence on these four issues right away. I urge each 
of you to push the administration to address these issues and 
to make sure that continued Congressional oversight is 
exercised as the 2011 referendum approaches.
    Thank you again for allowing me to appear today, and I look 
forward to addressing your questions. Thank you.
    [The prepared statement of Mr. Newcomb 
follows:]<greek-l>Randy Newcomb deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much. Mr. Carisch.

  STATEMENT OF MR. ENRICO CARISCH, FORMER COORDINATOR, UNITED 
             NATIONS PANEL OF EXPERTS ON THE SUDAN

    Mr. Carisch. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to address you 
today. I am particularly gratified by your continuing interest 
in Darfur, which is unfortunately not matched by much of the 
world even in places that talked of little else 2 or 3 years 
ago.
    I want to bring you the perspective from the broader 
community, from the broader international community and the 
multilateral efforts in bringing peace and security to Darfur. 
And there I think it is important to notice that many member 
states of the U.N. Security Council that 4 or 5 years ago have 
advocated and helped to impose certain coercive measures on 
those who have responsibility for the violence in Darfur now 
seem to be backing away to continue to fight back against those 
who abuse the Darfurians.
    Increasingly it looks like the poorly understood and 
underenforced U.N. sanctions are being sold out in favor of 
mediation, whose success is at any rate far from ensured. And 
that is the core of my concern which brings me here.
    I had the honor of serving as the coordinator of the most 
recent panel of experts on Sudan. For those who don't know, the 
U.N. has imposed an arms embargo in 2004. In 2005 it revisited 
the issue and expanded the embargo in order to affect all the 
parties belligerent and the government and the formulation used 
most. The embargo is for all the signatories of the N'Djamena 
Ceasefire Agreement. That is in place since 2005.
    That same resolution, 1591, also created a Sanction 
Committee and with that the panel of experts, which acts 
essentially as the eyes and ears of the Security Council in 
Darfur and in the region.
    Another important element of this resolution was that it 
provided a mandate to the panel to monitor compliance with the 
International Humanitarian Human Rights Law to report those who 
violate such laws, to report on those who impede the peace 
process, constitute a threat to stability in Darfur and the 
region and are responsible for military, offensive military 
overflights.
    We have tried to fulfill all these obligations and duties 
in our most recent report, a summary of which I would like to 
have inserted into your report with your permission along with 
the full written testimony.
    Mr. Payne. Without objection.
    Mr. Carisch. But I would like to just hit on the most 
important findings of the report that basically breaks down in 
eight areas or categories of abuses that we have found.
    First, most of the armed actors in Darfur continue to 
violate the arms embargo. The Government of Sudan and the 
combatants of JEM, the Justice and Equality Movement, are the 
worst offenders.
    Second, many of the arms and most of the ammunition we find 
in Darfur originates from China. We have attempted to cooperate 
with the Chinese Government and in some instances even with 
Chinese manufacturers of these arms in order to assist, to 
obtain their assistance in the tracing of these items to the 
actual violators of the arms embargo. It is very critical that 
we get full cooperation. We have gotten far from satisfactory 
cooperation so far.
    Without that cooperation, we will not be able to 
conclusively identify the embargo violators, and we will not be 
able to help with stopping the violence or the violations of 
the arms embargo.
    Third, international humanitarian and human rights laws 
continue to be abused and not respected.
    Fourth, too frequently, indiscriminate force, 
disproportionate and indiscriminate force is applied, which 
leads to massive killings, injuries and mass displacements of 
civilians. This past year we have seen that in several places. 
Misseriya was probably the most brutal one.
    Fifth, the panel has made special efforts to listen to the 
half of the population that usually is never listened to, which 
are the women. Every one of the ones we interacted with told us 
that the biggest and greatest threat to them continues to be 
sexual and gender-based violence.
    Sixth, almost all parties to the conflict continue to use 
child soldiers.
    Seventh, Darfurians are still illegally and legally 
detained according to Sudanese law or arbitrary arrests are 
carried out by the National Intelligence and Security Services 
of the Sudan. The detainees are interrogated and subjected to 
torture and physical abuse, which includes but is not limited 
to severe beatings and hitting with hands, fists and boots as 
well as other objects, flogging with rubber hoses, burning with 
coal heaters and other electric instruments, forced swallowing 
of extremely hot water, sleep deprivation and being suspended 
by ropes in stretched positions. These findings are from our 
direct interactions with such victims. We have medical 
testimonies as well. After they were released finally, they 
obviously needed medical help.
    Eighth, while the Government of Sudan has been claiming 
that the Janjaweed are disarmed, that of course again goes back 
to Resolution 1556 passed in 2004. We see no official 
accounting for that, and we have however in the context of the 
Misseriya battle found written evidence, battlefield orders 
that instruct an Arab tribe to participate, interact in the 
actions by the Sudanese Government forces.
    The following acts by the Government of Sudan and others 
have not been met with possibly the necessary counteractions by 
the international community. The panel of experts had one of 
its members not be allowed into Sudan; visa was simply denied 
by the Sudanese Government. Once in Darfur, the panel had 
difficulties to travel to places it needs to go, for example, 
where the most egregious violence occurred. Of a total of 70 
issues raised with the Government of Sudan in writing, 55 have 
been ignored.
    There is a spin-off effect of the Government of Sudan's 
position. It affects very deeply the international community's 
deployment. U.N., the U.N. Peacekeeping Force, UNAMID, is in 
charge of our security. They denied us security clearance, 
preventing us for 2\1/2\ months to work in Sudan and Darfur, 
alleging security issues. But we then found out that there were 
other issues, pressure from the Government of Sudan, the true 
reasons.
    We have also the fact that the group of the experts from 
the Human Rights Council was not extended in November 2007, and 
U.N. rapporteur of the human rights situation in Sudan, Ms. 
Sima Samar, that post was abolished on demand of the Sudanese 
Government and its political allies at the Human Rights 
Council.
    A mandate was replaced with another function, a U.N. 
independent expert, who has a very narrow mandate that actually 
allows him only to focus on the human rights forum, which is a 
joint function, a joint operation by the government and UNAMID. 
And then of course we also see that UNAMID is not able to even 
maintain and protect its own national Darfurian employees, and 
we have testimonies of those being abused by the National 
Intelligence and Security Services.
    The U.N. must accept responsibility for some of these 
problems. The government has overwhelmed the weakened 
management of UNAMID, and something must be done about this.
    Back to the work of the panel. We have since its inception 
in 2005 submitted close to 100 recommendations, all designed to 
improve the U.N. sanctions. None of them in terms of the 
substantive proposals have been taken up by the Security 
Council.
    For this particular mandate, we were deliberately coming up 
with only three very narrowly defined recommendations in order 
to provide something that is conducive to this very fractured 
Security Council, allowing it maybe to let these 
recommendations be adopted more easily.
    The first recommendation basically encompasses a reporting 
obligation that we would like to see imposed on the Government 
of Sudan on essentially the steps that they are required to do 
anyway based on the resolutions that have been adopted years 
ago. One would be identifying exactly what they are doing in 
terms of disarming the Janjaweed. The other would be 
identifying when they want to move their own soldiers and 
troops into Darfur, which in effect they could if they only 
would obtain permission from the Sanction Committee. They have 
never done that.
    Finally, we also want to see some kind of progress report 
in terms of preparations to secure the humanitarian situation 
in Darfur and in particular what they are doing to protect 
women, who suffer now much more since the eviction of the NGOs 
in March this year.
    The second recommendation pertains to an idea that has been 
floating around that has been supported already by a 
Presidential statement of the Security Council in May as well 
as the regional forces. This is about the establishment of a 
Chad-Sudan joint border monitoring mechanism.
    Finally, the third one, recommendation, we were trying to 
close the gap between the international community and globally 
operating companies, private sector members who knowingly or 
unknowingly end up being involved in the problems of Darfur. We 
need to develop due diligence standards that 
help<greek-l>s deg. them to understand when to make business 
and when not to do business with certain parties. We are not 
there. We need to develop a solution to this.
    Finally, there is a confidential annex about which I cannot 
really talk to you here because it is a confidential annex. But 
anyway, this brief description is that we are trying to list in 
there those individuals we feel are deserving of targeted 
sanctions. That is an asset freeze as well as a travel ban.
    Now, in terms of the reaction in the Security Council; I 
think it is noteworthy that of course you always have 
opposition when you come in, particularly with a hard-hitting 
report. It is quite normal that people don't want to discuss 
recommendations and basically just would like the thing to go 
away.
    What is new this time around, however, is that those states 
who used to be the original sponsors of the U.N. presence, 
particularly the arms embargo and other coercive measures, are 
not speaking up. At least that is the conclusion you have to 
take when you look at the public record. We have already the 
new resolution, 1591, that is basically the response to our 
report. It is literally the same as the one from a year ago, 
which was virtually the same as the one the year before.
    The lack of adjustment to new emergencies and to the 
inability to stand on the principles previously decided and 
adopted is sending a very loud signal to the Darfurians. The 
Security Council and member states, including the United 
States, are not going to come to help. And I think there is a 
larger issue here.
    Imposing sanctions only to fail to enforce them is 
destructive and counterproductive to the policy goals that 
motivated the sanctions in the first place. Making such empty 
threats endangers the lives of those who need protection and 
tends to escalate violence because the perpetrators feel 
emboldened by the very apparent paralysis of the international 
community. Failing to enforce sanctions also jeopardizes 
peacekeepers and other members of the international community 
who are deployed in the conflict area. It makes a mockery of 
everyone associated with sanctions, including the U.S. 
Government, whose firm leadership made those sanctions possible 
in the first place. And of course we contrast that with the 
leadership provided in 2004 and 2005.
    We see of course also the need that maybe a policy 
adjustment has to be made and that it is good and helpful to 
have China now more actively participate in the dialogue, in 
the international dialogue. But I don't think that the 
fundamental principles that are at the bottom, at the heart of 
the sanctions can be just disregarded. Sanctions need to be 
supported by the international community, and then they can 
also be an integral part and an important part in fact of 
mediation. And I think that is an important element that should 
be considered in the U.S. policy toward Sudan.
    If applied properly, U.N. sanctions we know can have a 
very, very beneficial effect. We have seen it in Angola. I have 
been involved in Liberia with the financial sanctions against 
the people around Charles Taylor and Charles Taylor himself. We 
have done it in the Congo. There is undeniably a positive 
effect if the sanctions are properly designed and then also 
properly enforced.
    I think the same has come clear. There is a report from 
OFAC that explains how the sanctions that you are imposing 
unilaterally have a very good coercive effect.
    Mr. Chairman, I hope that this testimony helps to maybe 
illuminate a little bit the role that the U.S. is now playing 
on the international scene. But I would like to bring this to 
specifics because I feel very much that the belligerents and 
the Government of Sudan should not be given an opportunity to 
play enforcement, sanction enforcement against mediation, and I 
think that we need to develop very concrete ideas how mediation 
can be supportive of sanctions.
    And therefore, I propose that you consider four points that 
the U.S. Government could maybe insist on, for example, the 
full cooperation by the Government of Sudan with the sanction-
monitoring efforts by the coming next panel, including of 
course a timely and immediate issuance of entry visas.
    Secondly, that all the parties to the conflict, in 
particular the Government of Sudan, are pressed that they reply 
comprehensively and transparently to all the issues that are 
being raised by the panel.
    Number three, that the Government of the United States is 
insisting with the Government of Sudan to provide safe access 
to all locations, that the panel must be able to inspect and 
provide unfettered access.
    And the fourth proposition is that your government 
encourages and works much more closely with the Government of 
China to ensure that China too is becoming a full partner in 
the enforcement of sanctions.
    By adhering to these benchmarks, the U.S. Government can 
begin to demonstrate that while the world may suffer from 
Darfur sanction fatigue, it will not surrender the Darfurians 
and the mediation process.
    Thank you for your interest, Mr. Chairman, in this problem 
and the efforts of the Panel of Experts to provide hopefully in 
the future again useful information to you. Thanks.
    [Note: The following submissions for the record by Mr. 
Carisch are not reprinted here but are available in committee 
records: U.N. Report of the Panel of Experts established 
pursuant to resolution 1591 (2005) concerning the Sudan and 
Vol. 5, Issue 47, of The CPA Monitor. The CPA Monitor may also 
be accessed via the Web at http://unmis.unmissions.org/
Default.aspx?tabid=2213.]
    [The prepared statement of Mr. Carisch 
follows:]<greek-l>Enrico Carisch deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much for your very comprehensive 
report, and we appreciate the work that you have done on the 
Panel of Experts.
    Mr. Prendergast.

 STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, ENOUGH PROJECT

    Mr. Prendergast. Thank you, Chairman Payne. And I would 
like to add my voice to the chorus this morning of praise for 
you and Congressman Smith, particularly for being such 
extraordinary upstanders for peace and human rights in the 
world's forgotten places and for the world's forgotten issues.
    This moment in Sudan's history requires utter clarity. It 
is crucial I think that we admit particularly after this 
morning that the existing strategy of the United States and the 
broader international community to end the genocide in Darfur 
and prevent all-out war in Sudan is failing. And it is time to 
alter our course and our policy in bold and specific ways in 
order to avert what could be the deadliest conflagration in 
Sudan's war torn postcolonial history.
    As we all know, two of the pillars, two of the principal 
pillars of the CPA are the elections and the referendum. But it 
is critical to note that the CPA also calls clearly for 
conditions that must exist for the holding of a credible 
election, including, as has been articulated this morning, a 
new security law to reduce the kind of harassment and 
intimidation of opposition, media access and freedom of 
assembly for opposition parties and then of course unrestricted 
access for the international observation.
    Not one of these preconditions has been met to date. I 
think we have to stand up and particularly this subcommittee 
has to stand up and say that the emperor is as naked as he ever 
was in the last 20 years of this rule of this ruling party and 
blow the whistle now on this deadly charade. Why? Well, I think 
the risks of ignoring the prerequisites that are called for in 
the CPA for holding an election and the risks of holding a 
noncredible election are enormous.
    Why? Noncredible elections are going to do the following 
things. They are going to fuel violence and divisions 
throughout the country but particularly in the south. And from 
my time living in southern Sudan in the 1990s and your frequent 
visits, as you well know, that was the deadliest time in 
Sudan's history because the ruling party in Khartoum was able 
to divide and destroy the south. It was able to rip the south 
to pieces using these strategies of pulling opposition figures 
and arming them and having them attack and create intercommunal 
conflict.
    The second thing that noncredible elections will do is to 
undermine the fundamental aim of the CPA, which is a 
transformation, a democratic transformation of the country. You 
don't start a process out of transforming a country with a 
nonfree and a nonfair election. That sets the trend in the 
opposite direction.
    The third thing a noncredible election will do is to 
disenfranchise millions of Darfuris and fuel further violence 
there in Darfur as the contest erupts and the divisions that 
occur will be used by the National Congress Party and others 
who want to undermine stability and peace in Darfur, to further 
the instability.
    The fourth thing a noncredible election will do is to 
provide false legitimacy to an indicted war criminal and to the 
party that he represents. And that is the last thing we need to 
be doing.
    And that rolls right into the fifth thing, which is let us 
not waste tens of millions, I think the number is $96 million, 
of U.S. taxpayers' money underwriting a noncredible election 
that is going to legitimize that war criminal.
    So what is the bottom line on this then? Until the parties 
agree to conditions that are in the CPA that will allow a 
credible election, I think the United States and the broader 
international community, but the United States has to lead it, 
we need to suspend all of our electoral assistance, the tens of 
millions of our taxpayers' dollars that are being spent on this 
thing. And the noncredible elections simply shouldn't be 
funded.
    We need to live by the principle. Noncredible elections 
shouldn't be financed by the United States taxpayers. And the 
parties, I think we should encourage them to agree to delay 
these elections until the CPA-mandated conditions for free and 
fair elections, for democratic transformation exist, because we 
can't be party to recognizing the results of any election that 
doesn't meet basic standards. We have done it too many times 
around Africa, and this furthers problems and deepens problems 
rather than resolves them.
    However, we have to equally vigorously continue to press 
for those conditions for free and fair elections and press for 
the conditions, the necessary preconditions for holding the 
referendum on time. If we don't hold that referendum, if the 
referendum is not held on time in January 2011, that is 
probably the most certain trigger for a return to full-scale 
national war.
    Now, to be clear, we are not demanding a postponement of 
the election per se. But what we are doing here, and there is a 
reason for it, is pushing for the conditions for a free and 
fair election as spelled out by the CPA, in other words, total 
adherence to the CPA, not selective adherence to the CPA.
    If the international community lets then the National 
Congress Party just gloss over the provisions that would create 
a fair election without any consequences, this will 
demonstrate--and this is the crucial point--this will 
demonstrate once again that we, the international community, 
lack the will to enforce the basic elements of the CPA. And 
what does that do? That signals to the CPA that it can wriggle 
out of further CPA requirements going down the road, which 
further imperils the fragile peace that exists today in the 
south.
    So that is why we are calling for the full implementation 
of the CPA. And we think rushing toward elections, which are 5 
months away, without the proper conditions in place will end 
badly, particularly for the people of the south and the people 
of Darfur. And it will further embolden--this is the 
punchline--it will further embolden the National Congress Party 
to undermine the next major CPA process, which is the 
referendum. So we have to hold the line here. It is not a 
future benchmark we are looking at, it is a present one.
    But there is an even more important point from our 
perspective at the Enough Project. There is a reason Sudan is 
facing this 10-minutes-til-midnight, make-or-break scenario 
that we are facing today.
    Until now--and this is for me the most important point the 
advocacy community can make--because there has been no cost for 
nonimplementation of key parts of the CPA, because there has 
been no cost for the commission of genocide, because there has 
been no cost for the commission of another genocide in the 
south, which wasn't called a genocide for 20 years, the 
parties, but particularly the National Congress Party, continue 
to trample on any agreement that is signed because there is no 
consequence for nonimplementation. It is very obvious and basic 
human nature.
    So it is time, and this is why the Congress is so crucial, 
it is time for President Obama to decide to implement his own 
administration's benchmark-based policy, because flouting the 
establishment of conditions for a credible election and the 
referendum, that should trigger immediate consequences now. The 
U.S. should work within the United Nations Security Council and 
outside of it because a lot of things are simply not going to 
be able to move, as we all know, because of the membership 
there, and we should work to build that coalition of countries 
that are willing to introduce some of these consequences.
    Sometimes we will have to go it alone, but let us at least 
do the diplomatic work to build the coalition to try to go 
multilaterally on some of these things and impose these 
consequences as soon as possible on the National Congress Party 
for its obstruction of basic conditions for peace. And the 
consequences, everyone always says oh, we already tried 
pressure. This is what General Gration has said a number of 
times publicly: We have tried pressure, it doesn't work.
    We haven't. We haven't tried credible pressures. And we 
list a few here, and they are incredibly important, valuable 
points that Mr. Carisch has raised in the Panel of Experts 
report about the effectiveness of sanctions when they are 
actually implemented and the ineffect of sanctions when you 
pass them, but then you don't implement them and don't execute 
them.
    So first and foremost, we need to ratchet up and actually 
impose some of the targeted sanctions on the people listed in 
that confidential annex and do it in a sequential way so people 
can see the tidal wave is coming at their head, so they can see 
you are working up through the chain of command on the basis of 
empirical evidence that these people are either obstructing 
implementation of agreements or are actually responsible for 
grave human rights abuses.
    So we can do those multilateral sanctions, the travel bans 
and asset freezes. They are scarlet letters. There are 
political impacts for economic measures.
    Secondly, we can deny multilateral debt relief. The 
Sudanese Government is on a mission right now. They want debt 
relief. They have got a serious economic problem even though 
they are making money hand over fist from the oil, going into 
private accounts. So publicly the coffers are bare. They need 
multilateral debt relief. We need to be in every forum they are 
in asking for debt relief saying sorry, not today.
    Third, we can be pushing for enforcement of this arms 
embargo that has been talked about. And I will just refer you 
back to the previous testimony.
    And then fourth, we can provide as the United States now 
that the conclusion of the process, the interagency process of 
examining what the Obama administration's policy should be 
toward the International Criminal Court is finished, we ought 
to be providing more robust support for the ICC investigations 
and indictments for ongoing atrocities.
    And all that word game, wordsmithing that was going on 
there about whether genocide is occurring or not in Darfur 
obscures the fact just because 16 or 18 people according to 
General Gration died in Darfur in whatever month he was 
referring to, let us count the number--but we can't because we 
have no access--let us count the number of women who have been 
raped, let us count the number of children who are malnourished 
directly as a result of policies that are aimed at destroying 
in whole or in part a particular group of people. Call it 
genocide or don't call it genocide, it doesn't just mean gas 
chambers or village-burning. Genocide has many different forms. 
Let us look at that.
    Now these consequences in this confidential annex that 
General Gration says doesn't exist, which concerns me greatly, 
these are the instruments if we are to believe Secretary 
Clinton and Ambassador Rice in their elaboration of this 
confidential annex, these are the consequences and the 
instruments that I think can help prevent an all-out war in 
Sudan.
    In conclusion then, in your opening statement, Mr. 
Chairman, you made a very important point about engagement. 
When we are talking about increasing consequences, we are not 
talking about cutting off negotiations engagement. You have to 
engage to get your priorities advanced. But you use the 
consequences to back up and give leverage to the engagement.
    And we think, not to leave Darfur out of the equation here, 
we think it is time for a real diplomatic surge in Darfur. Let 
us not forget Darfur as we become obsessed with our efforts to 
try to prevent a return of the north-south war. And we think a 
surge, a diplomatic surge by the United States and its allies 
on Darfur should include the immediate drafting of a proposal, 
a peace proposal, that addresses the root cause in Sudan and 
put that draft down and start the debate and the dialogue 
between the Darfurians and amongst the broader Sudanese public 
about what the basic elements of a peace agreement will look 
like in Darfur.
    After 6 years of this nightmare for the people of Darfur, 
we have yet to have seen one document laid down by the United 
States and the broader international community that addresses 
the core issues, the core issues that every Darfuri knows, 
lives and breathes. It is a stunning failure of international 
diplomacy.
    There is nothing preventing us from going to Bassole, the 
United Nations African Union representative, working with him 
to put the draft together. How many consultations more does one 
need to say these are the basic issues, put those positions 
down and get people negotiating over an actual text? That will 
move the ball forward.
    Thanks very much for having me, Mr. Chairman and Ranking 
Member Smith.
    [The prepared statement of Mr. Prendergast 
follows:]<greek-l>John Prendergast deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you. Thank you very much. This ends the 
hearing phase, and we will now move into the briefing.<greek-l> 
And we will now hear from Lieutenant General Nhial Deng Nhial. 
The floor is yours. deg.
    [Whereupon, the subcommittee proceeded to an off-record 
briefing.]
    Mr. Payne. Let me thank you very much. Let me thank all of 
you. We have another series of votes. I wonder if the ranking 
member wanted to make any concluding remarks. I intend to come 
back for a few minutes to ask several questions if the panel 
will indulge. We have three votes, three to four votes. They 
are 5-minute votes each. Normally it should be 20 minutes for 
the duration of the votes. So at that time, we will----
    Mr. Smith. Mr. Chairman, I have several questions that I 
will reduce to just a few.
    Mr. Payne. Okay.
    Mr. Smith. But I hope our panelists, I know they hopefully 
will understand.
    Mr. Payne. Okay, great. Well, we will recess. We will 
probably readjourn at about 2 o'clock. We have to be out of 
this room at 2:30 anyway, so we will be evicted if we are not 
finished. The meeting stands in recess.
    [Recess.]
    Mr. Payne. Thank you once again for your patience, and we 
apologize for the interruptions, but that is a day on Capitol 
Hill.
    At this time, reconvene, and we will have a few questions 
for the panel.
    John Prendergast, you recommended a delay and suspension of 
U.S. assistance for the 2010 agreement. I certainly completely 
agree that the CPA must be fully implemented, but I have always 
had a problem with the delaying of elections or referendums, 
because sometimes the delay, then you have another delay, and 
many times we have a difficulty really biting the bullet and 
moving forward.
    So I wonder how we can address both issues. That is, can 
the conditions that you mentioned be met in time to delay 
elections and hold a referendum in 2011? I know they are two 
separate issues; the election is coming up next year, the 
referendum coming up in 2011. We know that the month of 
November was the month for registration. Like I said, I was 
there 2 weeks ago. Registration started late; there was a 
concern.
    However, once the process began, there was more excitement 
about registering. I went to sites, went to a training site, I 
went to an actual registration site. And I understand that 
registration has increased. Of course I think that the 1 month 
of November was not long enough, and I do believe that 
registration has been extended. So why don't you give me 
further clarification on your statement.
    Mr. Prendergast. Thanks for asking for the clarification, 
Congressman Payne. Ultimately, at the end of the day, any delay 
will have to be a result of the agreement of the parties. So I 
wanted to reinforce that we are not calling for a delay or a 
postponement; we are calling on the parties to consider, 
particularly of course the SPLM as the party that has been more 
forward-leaning in the negotiations, to consider what their 
options are going forward in the negotiations with respect to 
the holding of the election on time.
    What I guess we are getting at as outsiders is we don't 
want to provide international validation to the process. We 
know if it is not a free and fair election that we won't 
recognize it, we won't provide a validation of the results. We 
shouldn't along that same line provide validation to the 
process by providing all kinds of resources and support to it 
if the preexisting conditions, the various laws and conditions 
of freedom of assembly and others, and the security laws are 
not in place to allow for a free and fair election.
    So in other words, they can have the election; let us just 
not underwrite it and support and go through the charade of 
supporting what is going to be an unfree and an unfair 
election. I guess that is the distinction we are making. And 
stay on time and stay on track for the referendum.
    The referendum doesn't have the kind of wiggle room that 
the elections have. The referendum has to occur in January 
2011. I think it is the ultimate trigger for a return to war. 
Everyone's focus has to be, that cares about southern Sudan and 
cares about the transitional areas and cares about the country, 
has to focus on making sure that referendum occurs in January 
2011.
    So the elections, it is more important to have a free and 
fair, a credible election, than it is to have just any old 
election. So that is why we are saying at least suspend the 
assistance. It is up to the parties whether they are going to 
delay or not delay, postpone or not postpone, but at least the 
international community doesn't have to be perceived to be 
supporting an electoral process in which the very conditions in 
which that electoral process is being conducted are designed to 
create a noncredible result.
    Mr. Payne. Mr. Carisch, do you have any feelings on the 
election and the referendum? You have spent a lot of time with 
your panel of experts.
    Mr. Carisch. Thanks, Mr. Chairman, for asking. I generally 
would like to refrain from commenting on territories that I 
didn't have responsibility to monitor, but maybe I can add 
something to the general issue.
    Up to the very late, the last days when we still were in 
Sudan, we would quite frequently ask the Darfurians and the 
government in Khartoum, What are you doing to ensure that fair 
elections are being held in Darfur, that the Darfurians are 
able to fully participate? And one of the things I wanted to 
know is, are you translating all the material into Masalitfur 
and Sagaba? A lot of people don't speak Arabic in Darfur. I 
have not found anybody who could affirm this, that they 
actually are doing an effort. Sorry I can't add more to this.
    Mr. Payne. No problem. Dr. Newcomb?
    Mr. Newcomb. It is an interesting question, and it is one 
that we have struggled with. And it is from a different 
perspective. Since we are a philanthropy, we have been 
approached by many of the NGOs and private sector groups that 
are looking to monitor. And we have taken the position that 
until the international community signals sort of thresholds 
and benchmarks that would ensure legitimacy within the election 
that we can't move capital in that direction. And the capital 
remains locked up because the ways in which that capital could 
be used to actually legitimize a faulty election would be a 
tragedy.
    And so our position has been to not move capital toward 
elections until somebody begins to signal what those thresholds 
will be.
    Mr. Payne. And also a follow-on, since you are involved in 
assisting in the funding and election observers, I am just 
wondering what your feeling is on the countries that--and then 
I might ask the others of you to comment if you would like. As 
you know, the government of the National Congress Party 
identified certain areas or countries or areas of countries 
where ex-Sudanese living abroad can vote.
    Now, as we know, there were just two sites in the U.S. I 
think, one in Canada, Egypt, a couple of Gulf countries. But 
countries around, close to Sudan, were all excluded. And I just 
wonder whether that has been brought to your organization's 
attention, and do you have any comment on that?
    Mr. Newcomb. In fact, it has. And a part of our work has 
been around working among Sudanese diaspora globally and have 
funded quite a bit of work to help organize and support. And 
this is a message that we are hearing from a number of these 
civil society gatherings is that it is a highly selective 
identification of who is able to participate in a vote outside, 
among the members of the diaspora.
    Mr. Prendergast. You can take right here, Congressman 
Payne, in the United States where thousands and thousands of 
southern Sudanese here living here in the United States can't 
register because they don't have either a valid passport or a 
birth certificate.
    I mean, what I fear and many fear is that if these 
elections go forward without any alteration of the existing 
terms of reference that hundreds of thousands of Sudanese in 
the diaspora around the world and millions inside Sudan, 
particularly in Darfur, are going to be disenfranchised by this 
process. And these are just part and parcel of the way the 
National Congress Party does business again. And if they are 
not challenged at each and every one of these junctures with 
consequences for these kinds of obstructions, then does anyone 
in this room really think there is going to be a referendum in 
January 2011? They are going to allow it?
    If they see that they can get away with these smaller 
things, these little nickel-and-dime things, one after the 
other, when it is time for the dollar store cash-in, they are 
going to be like no, I am sorry, can't have it. There is this 
problem or that problem or whatever other issue undermines the 
process.
    We have got to stand up now to each one of these things and 
ensure that the administration imposes the consequences that 
the Secretary and the President said that they were going to 
impose if certain benchmarks are met. I think these are the 
kind of things we should be saying, hey, some of your 
benchmarks are being met. And when you get that confidential 
briefing, if you ever get it, you know, you are going to find 
that it is inescapable. There are all these issues that have 
already passed time, where there should have been international 
pressure that the United States leads to make sure that there 
is some movement on the part of the NCP.
    And it is not just a vilification of the NCP. If it is the 
Darfur parties, rebel groups that are the problem, then you 
have got to hit them with consequences. If it is SPLM, hit them 
with consequences. But right now, the preponderance of 
obstruction, the preponderance of warmongering is coming from 
the usual source that it has over the last 20 years, which is 
the ruling party.
    Mr. Payne. Just say, for example, all things worked well. 
Elections were held fair and free, the referendum was held fair 
and free, and the south decided to secede. Have there been any, 
have you had any discussion, or have you heard from any of our 
U.S. officials? And then if, in fact, the National Congress 
Party refuses to respect the outcome, have you heard anything 
from U.S. officials about any kind of mechanisms to enforce the 
referendum? Use your mike, your mike is off.
    Mr. Prendergast. I appreciate that. This is the essence of 
the policy review that occurred over the last 9 months, and I 
think was the essence of the debate.
    General Gration very publicly--I mean, this was an 
unusually public internal policy debate, because he was so 
public in his position, which was we ought to provide an 
incentive-laden strategy that gets the National Congress Party 
to change its behavior. Others inside the administration, who 
we all know who they are, fought the other way for much more 
pressures and consequence-based strategy.
    But the end of the day, what they came out with and what 
they announced is well, we will give rewards for better 
behavior, and consequences for negative ones. The enchilada, 
the big enchilada at the end of the January 2011 is whether the 
NCP allows a referendum, and then respects its result. And one 
assumes, but none of us know, because there isn't transparency 
around the policy, that there would be significant and serious 
consequences for nonrespect or for not respecting the results 
of that referendum, if all of the things happen that you 
outlined, Congressman Payne, happen.
    And that is where I really think in terms of, for our role 
as advocates and your role as oversight of the executive 
branch, we need to know, even if it is not publicized, that 
there are significant and serious consequences now for 
nonimplementation of things that need to be done now, and much 
more serious ratcheting up of the consequences in January 2011 
if the National Congress Party either obstructs the referendum 
or doesn't respect its result.
    Mr. Payne. Thank you very much. Just finally I note, Mr. 
Carisch, you have to leave. But let me just ask one question 
regarding your panel of experts.
    The latest report of the U.N. Panel of Experts on Sudan 
mentioned sexual and gender-based violence as one of the 
critical issues facing Darfur women and children. What 
assessment have you made of the provision of sexual and gender-
based violence services? What specific steps should the U.S. be 
taking to ensure their restoration? And by what benchmark 
should we measure the progress of the gender-based and sexual 
violence services?
    Mr. Carisch. Thank you. Well, the expulsion of the NGOs in 
March has contributed a great deal of diffusing and obscuring 
this subject. We know that a substantial amount of the 
organizations that were involved, and now are no longer there, 
had an important role in addressing these problems, and did so 
with some success.
    I think that the principal problem that we are facing now, 
expressed in all of these various things that we have been 
looking at, the forms of abuses and problems that you are 
looking at in Darfur comes to the forefront even more 
prominently in the gender and sexual-based violence issue, that 
we have no longer a solid, good reporting mechanism, or a 
monitoring mechanism.
    We are getting incredibly frivolous statements from the 
Government of Sudan to prove that they have overcome the 
issues; that they have been able, with a few additional, a few 
new NGOs that they let in, and some of their own resources that 
they put into place, that they have overcome these problems.
    I was in Salingee myself, and talking to the staffs of the 
various medical facilities that used to be there, and now it is 
just national staff there. And they told me well, yes, we had 
actually some doctors that were sent from Khartoum. They were 
here a few weeks, and they didn't get paid. And they didn't 
like the fact that this wasn't really that secure. So they 
packed up and went home.
    And that is now the balance of this whole situation in 
Salingee, which is a relatively large area. It has four IDP 
camps, with tens of thousands of people. They have now far less 
medical care facilities, doctors, et cetera, and absolutely no 
attention any more to the whole issues pertaining to the women.
    So not only we know just from the anecdotal and empirical 
knowledge that we were able to gather, which is by no means a 
systematic overview, that the situation has gotten 
significantly worse. But worse than that is that we don't have 
a mechanism to exactly determine what needs to be done.
    Mr. Payne. Well, thank you. Thank you very much. I yield to 
the ranking member.
    Mr. Smith. Thank you very much, Mr. Chairman. And I want to 
thank all four of our very distinguished presenters for the 
work that you have done, and for sharing your valuable insights 
with the subcommittee.
    I have a number of questions, but I will narrow it to just 
a few, given the lateness of the hour. Let me start, first of 
all, with Mr. Prendergast. I mean, your testimony couldn't be 
more clear, that the CPA preconditions have not been met. And 
you go through them. And you know, from my work with the OSCE, 
the Organization for Security and Cooperation in Europe, for 
years--I have been on that since my second term in 1983--a free 
and fair election isn't just the day of the balloting; it is 
the access to the media, the harassment or worse of opposition 
figures, all the points that you point out that the CPA covers 
that appear to be falling by the wayside.
    And then I read, you know, juxtapose the testimony from 
General Gration, and he spends one paragraph on the elections. 
And he says, ``We are also focused on ensuring the April 2010 
elections are credible,'' and he talks about voter registration 
very briefly. But he makes it sound like everything is just 
moving along without much concern.
    And I find that very disturbing. And you might want to 
comment on that.
    And the second thing--maybe I will lay all my questions out 
again in the interest of time--the idea of having confidential 
benchmarks, you know, wittingly or unwittingly, could very 
quickly lead to no action, subterfuge, and all kinds of other 
nasty outcomes. Because where is the accountability? I can't 
even get a secret, what do you call it, I can't think of the 
word. I can't even be apprised of the----
    Mr. Prendergast. A briefing?
    Mr. Smith. A briefing. Can't even get it. And I was told I 
would get it today, so I will work on getting that.
    But it seems to me you want these kinds of benchmarks in 
neon lights, rather than somewhere in an annex somewhere in the 
table. Because that, to me, makes it much easier for the 
offensive and the offending individuals to violate, and then it 
gets brushed over.
    So I am very concerned about that. Human rights always 
suffer when they are done or focused upon behind closed doors. 
Sometimes it helps a little bit; often, it does not.
    So I would ask you if you would speak to that. The 
coalition of the willing you talked about, is anything like 
that being put together? And I know that, Mr. Carisch, you make 
a point that we have sat on the sideline. We joined the chorus 
who do nothing. And I remember in 2005, we tried very hard as a 
country, our negotiating team, to get at the U.N. a resolution 
that had further teeth, that would have not just focused on the 
Janjaweed and others getting weapons, but also on the 
government itself in Khartoum.
    We also, you point out in your testimony, and if you 
could--and I think your testimony was outstanding. When you 
talk about the eight categories of abuse, you testified that 
some arms and a majority of ammunition originate from Chinese 
manufacturers; that there is minimal cooperation and response 
to requests to the Chinese authorities.
    If you could define some arms. Where are the other arms 
coming from? And minimal cooperation. Are they really 
cooperating at all? Are they, I mean, you mentioned also in 
your testimony the dialogue. Very often human rights dialogue, 
or even dialogue with regards to Sudan, becomes a facade for 
further mischief. Because after all, we are dialoguing, but the 
Chinese Government meanwhile is providing all these munitions.
    Because again, you also point out that the material that 
was manufactured in China may have been legally delivered to 
the territory of Sudan not under the embargo. I know that was 
attempted to be covered, and did not get covered.
    It would seem to me that our negotiators should be saying 
wait a minute. You know, it is where the weapons end up that 
really matters the most, obviously. And if it is in the hands 
of killers and people committing genocide, that is what it is 
all about.
    But to use a deadly loophole, like you know, they are 
coming ashore somewhere where this doesn't apply, I mean, that 
is a deadly loophole. You might want to speak to that.
    Let me also ask briefly, if I could, in the time remaining, 
What would you recommend to the United States in particular, 
and to other countries who do care? But talk to us. When you 
talked about that the new resolution, 1891, is almost identical 
to previous ones, has no lack of adjustment to new emergencies, 
and the inability to stand on the principles previously decided 
and adopted, and is sending a loud signal to Darfurians the 
Security Council members, including the United States, are not 
coming to help.
    I think that is very profound, that they are taking their 
cue that, you know, been there, done that, and we are not going 
to update the resolution. The mandate stays status quo. And you 
even get even stronger in your statement--and the others might 
want to speak to this, as well--that when you impose sanctions 
and don't enforce them, empty threats leads to more violence. 
And again, we are standing, as the United States, on the 
sidelines and not doing all that much. I am very, very 
concerned about that, and you might want to speak to that, as 
well.
    And I think, and finally, we heard earlier from General 
Gration that regarding the arms to southern Sudan, the 79,000 
AK-47s we have heard about, and I am sure there is a lot of 
other materiel making its way south, that we have not found 
linkages to Khartoum. I mean, can you say that with a straight 
face?
    Mr. Prendergast. Who gets to go first? To deal quickly with 
each of the excellent points, first, I am really worried about 
the mixed messages that are coming out of the U.S. Government, 
that have been coming out of the U.S. Government for the last 7 
or 8 months.
    There is a strange disconnect between General Gration and 
what he says about the elections, as you read in his testimony. 
But then the State Department issued a very negative assessment 
of their take on where the electoral process was just a few 
days after he got back, as if they hadn't coordinated. And then 
there is this exchange today about whether there is a 
confidential annex or not. I mean, that is incredible. The 
Secretary of State said there was a confidential annex. To me, 
you don't contradict that in public; that is a story. You are 
making, you are generating controversy for no reason.
    And I don't know what it means. Does it mean we don't have 
a confidential annex, or is he just calling it something else? 
It is worth investigating, worth asking about.
    Third, you know, this genocide or not genocide; this just 
ongoing difficulty with being able to just simply say what the 
policy of the President of the United States is, who has said 
it is an ongoing genocide. Where is the controversy?
    Second point there is that about the issue of having these 
benchmarks not be public. I think the reason why, having worked 
in the White House before, is that the executive branch is 
generally--Republican, Democrat, anything--don't like to be 
pinned down on what they are going to do. In other words, if 
they said publicly a benchmark for us doing something is, you 
know, something about the elections, then if that thing 
happens, then they have got to do something. They would rather 
leave it somewhat vague so they can make a week-to-week, day-
to-day assessment of their options, and so they keep it 
deliberately vague.
    That is why it is so important for you to demand the 
briefings, and get these briefings, so that you can at least 
have something to hold them to it in an oversight capacity. We 
don't, sadly, have the capacity, as advocates, to have a 
confidential briefing. We have just got to trust that they are 
telling the truth, that in fact there is a, you know, a set of 
benchmarks with real consequences or real incentives in that 
package, but who knows?
    So third, I do want to make a very strong point, at least 
strongly felt point, about why we are talking so much about 
consequences.
    We are not looking to punish the NCP; we are looking at the 
empirical evidence of the last 20 years. When the National 
Congress Party has changed its position and compromised, it has 
been when there has been concerted multilateral pressure.
    They booted bin Laden out when there was concerted 
multilateral pressure through the United Nations Security 
Council. They stopped, remember, the slave rating support to 
the Misseriyan militia. You guys, this subcommittee and you two 
in particular were so important in that happening, because they 
feared that Congress was going to provide aid to the SPLM. That 
is why they stopped. There was no other reason. There was a 
potential serious consequence, so they said whoa, wait a 
minute.
    Same thing with the aerial bombing. Remember Franklin 
Graham and all that stuff. And they worried that the Christian 
Coalition and conservative Christian groups were going to tell 
President Bush to do something more. So they stopped it because 
it became untenable for them to do it.
    The counterterrorism cooperation after 9/11. Before 9/11 
they didn't help us with anything. After 9/11, they helped real 
fast, after Wolfowitz said maybe we ought to look at Sudan as 
the next one to invade.
    And then finally, the CPA itself. There was real, you know, 
there was frustration on Capitol Hill, maybe we should be 
supporting the SPLM more strongly, and Darfur was building. So 
there was real pressure, multilateral pressure, and that led to 
the compromises necessary to have a CPA. That is real evidence 
that this kind of approach or policy works.
    That is what is so distressing, to see the current Special 
Envoy, who doesn't seem to at least acknowledge the history, a 
20-year history, where previous policy has actually succeeded 
when the United States led multilaterally to achieve a human 
rights objective in Sudan, and succeeded because we stuck to 
our principles, and then worked the pressures route, and 
actually was able to accomplish what our particular objectives 
were.
    And I think again, in the oversight capacity and in the 
watchdog capacity that Congress and civil society has, we ought 
to be really hammering on them as much as we can.
    Mr. Carisch. Thank you, Congressman Smith. Just very 
briefly, then--I think we are running out of time--the arms 
embargo that was imposed, 1591 in 2005, I think did a good 
thing by expanding it to all the signatories of the germane 
ceasefire agreement.
    What it failed to do is to make sure that it puts into, 
this is of course still this kind of regional limitation just 
on the three to four states.
    When you look at the topography of Sudan, of course 
immediately it becomes apparent that to monitor those borders, 
a substantial part within Sudan, and then you have 
international borders, is a difficult thing to do. Correctly, 
they addressed this a little bit by giving UNAMIN actually an 
arms embargo monitoring mandate as well.
    Well, they have never reported a line about it. So that 
needs to be addressed.
    Mr. Smith. Can you touch on those other points, too, 
briefly? I know we have got to go soon.
    Mr. Carisch. Sorry?
    Mr. Smith. Could you touch on some of those other points, 
too?
    Mr. Carisch. Right. So then regarding China. Look, I mean, 
in the U.N., when you sign a letter, and you get the letter 
back acknowledging that they have received the letter, that is 
cooperation. Thank you.
    Mr. Smith. So now that is the extent of it? That is 
important to know, because minimal cooperation means exchange 
of letters.
    Mr. Carisch. There are maybe some little incremental bits 
and pieces. But by and large, if you look in our report we have 
a table where we say how many issues we raised per country, and 
what has been answered. I mean, it is just----
    Mr. Smith. And some of the other munitions and some arms, 
but where are those other arms coming from that----
    Mr. Carisch. Some we are still tracing.
    Mr. Smith. Okay.
    Mr. Carisch. But there is, of course, a fair amount of 
really old stock, particularly in terms of arms, firearms, that 
is circulating the region. Some of it has probably come from 
the various, neighboring conflicts have come in. It is a 
laborious process, and member states need to participate in 
this tracing process in order for us to succeed. Unfortunately, 
I don't.
    Mr. Smith. Does anybody want to take a stab at whether or 
not, how credible the statement was that AK-47s are making 
their way down 79,000 strong, and maybe more? And it doesn't 
have Khartoum's fingerprints all over it?
    [Off-record response from briefer.]
    Mr. Smith. Well, again, General Gration pretty much, it was 
kind of a boast. And if it is true, it would be, and if it was 
truly a registration it could be verified. But he talked about 
the 12 main Sudanese who have signed up.
    Do you have any idea how many of those might be just 
carried by lists by the--okay, that is very disturbing.
    I want to thank you very much for this hearing, and I will 
send additional questions to our distinguished panel. And I 
thank you.
    Mr. Payne. Thank you. We are on a--Dr. Newcomb has to 
leave. But we do have, and if you have to leave, we won't say 
it is an affront to our Congresswoman.
    But Congresswoman Jackson Lee has joined us, and we 
appreciate it. I know you have been in other markups all day. 
And so if you have any questions you want to ask.
    Ms. Jackson Lee. I will try to go directly to Dr. Newcomb, 
but let me just thank you, Mr. Chairman, one for having the 
envoy here. We were in a Homeland Security hearing on the White 
House breach. I wish I didn't have to be in that hearing; I 
wish that breach of security did not occur. I wish it was not 
taken in the light format that it was, but it was a serious 
consideration. I thank you for your patience for my absence.
    I am committed to victory in Sudan, and everyone has a 
different interpretation of that. I missed the envoy, but I 
understand that he is steadfastly looking to define the 
conflict, or a definitive into the conflict, to implement the 
North-South Comprehensive Peace Agreement and ensure that Sudan 
does not provide safe haven for terrorists.
    Dr. Newcomb, can you--I am just going to go down the row 
here until I get to the Lieutenant General. First, what do you 
want? And two, do we have the right posture now, as the United 
States postures itself, in bringing about the solution as 
articulated by the envoy? And is he on the right track?
    And this is not speaking on someone who is absent. All of 
this will be on the record. And I look forward to engaging with 
the envoy, as well. Dr. Newcomb.
    Mr. Newcomb. I appreciate that question. You know this 
phrase, you campaign in poetry, and you manage in prose. And I 
have often felt that once the campaign was over, that the 
expectations that were set by the poetry during the campaign 
don't meet the management of the prose in the policy.
    And I represent the private sector, where we are engaged 
philanthropically to support the good efforts of the United 
States Government, as well as others. And this lack of 
signaling, this lack of leadership role overall has really led 
to just keep a lot of the philanthropic efforts on the margins.
    And so I think the liberation and the significant moral 
authority, if you will, that the U.S. plays here to signal and 
to play that leadership role is so important, at least for my 
organization and many others that I work with.
    Ms. Jackson Lee. So we should be more vocal, and we should 
denounce actions and be clear about our position.
    Mr. Newcomb. I think we have a leadership role to play in 
the international community, that is not being played at this 
moment. And that we should step into that vacuum, and play a 
far more deliberate role there.
    Ms. Jackson Lee. Mr. Carisch, if I could? Thank you. Thank 
you, Doctor. Just, same question.
    Mr. Carisch. Well, thank you for asking the question. Well, 
as I have pointed out hopefully with my testimony, there is a 
definite need for leadership. And maybe this allows us to come 
back to a question that Congressman Smith had asked; What can 
be done?
    The central point that I was trying to make today is that 
the leadership now I think that the U.S. can demonstrate to the 
world is by finding a way how to combine mediation and the 
sanction process.
    Ms. Jackson Lee. Combine the what?
    Mr. Carisch. Combining the mediation efforts that you are 
undertaking with the ongoing and existing sanction mechanisms 
that are in place, and to which obviously the United States is 
part of. I think that needs now some work to develop this, in 
terms of practical steps that can be implemented. But I think 
that is now a realistic approach to the situation we are 
encountering there.
    Ms. Jackson Lee. Mediation and sanctions should go hand in 
hand.
    Mr. Carisch. That is true.
    Ms. Jackson Lee. The last two witnesses, Mr. Prendergast 
and Lieutenant General, if you would add to your comments. Are 
there still killings going on in the region? And what does our 
position that we are taking as Americans with the envoy do to 
the, the idea that killings are going on, and our efforts may 
not equate to that intensity?
    Mr. Prendergast. This is not, in the last 20 years, 
Congresswoman, this isn't one of those times, one of those 
moments, if you take a snapshot, where mortality rates are 
spiking. You know, 2 years ago in Darfur, they were spiking. 
Six years, 8 years ago in southern Sudan they were spiking.
    But we see different manifestations of the same policy of 
dividing and destroying the communities, from which political 
opposition emerges. So in Darfur, people hemmed in camps, a 
policy of rape as a tool of war, turning aid on and off, 
throwing out NGOs. General Gration misses the point about 
throwing those 13 NGOs out. Those 13 NGOs, the majority of them 
were focusing on violence against women.
    It is hard enough to replace the humanitarian capacity. He 
is absolutely right, we desperately worked to barely replace 
the humanitarian capacity over the last 6 months. But we 
haven't replaced the capacity to treat the survivors of 
horrific sexual violence. And violence is a tool of war. That 
is a grossly negligent position on the part of this 
administration, not standing up for the women and the girls in 
Darfur who are being targeted.
    In the south we are seeing the beginnings of what we saw in 
Darfur in 2002, the year before the genocide began. And what we 
saw during the 20-year war, from 1983 on. And that is the use 
of militias in the south to destabilize. And you see what are 
sometimes called inter-communal violence, or tribal violence, 
or cattle raiding or things like that. Suddenly, hundreds and 
hundreds of people are being executed in the context of a 
cattle raid? Well, I mean, as Congressman Smith just said, can 
you credibly argue that this isn't an escalation? No, I don't 
think so.
    So the approach, now to answer the first question, the 
approach that has been taken so far I think is marked by four 
elements. Quiet engagement by the Special Envoy. Incentivizing 
the path to behavior change. So offering incentives in the form 
of better relations with the United States, or continuing 
engagement, playing nice publicly even is an incentive.
    Then the third aspect is moral equivalency, never blaming 
one side or the other, just saying this thing isn't happening, 
or this thing is wrong, without saying somebody is actually 
responsible for it.
    And then fourth, a total lack of consequences for the 
violence that we have just described, and for undermining peace 
efforts.
    The alternative that I think some of us on the outside 
within the various coalitions of activists are saying should be 
marked by a very different set of four approaches.
    The first one is higher-level engagement. We do need the 
President, we do need the Secretary of State to occasionally 
engage on these kinds of things. We know Ambassador Rice is, 
but we need to see that higher-level engagement, so that it is 
clear to the world that this is an issue that matters.
    It was disappointing to all of us that, when President 
Obama and President Hu rolled out their, whatever you call it, 
communique at the end of their meetings. There was no mention 
of Sudan, even though we were told that he raised it privately. 
It would have been good even just to say, Hey, we pledged to 
work together to end violence or something. You know, anything. 
So higher-level engagement, number one.
    Number two, instead of the incentivizing, instead of 
incentivizing the path to better behavior, pressure. Because 
that has worked. And that is what I was talking about when you 
came in.
    The third element is, stop the moral equivalency. When one 
of the parties is undermining, dramatically undermining forward 
progress on implementation of the CPA, dramatically undermining 
security in Darfur, we ought to say publicly, very clearly, 
that that party is doing it, and that is why we have a problem 
with what is happening. At least stand up for the people who 
are suffering the results.
    And then finally in the fourth element of an alternative 
strategy to the one that is being pursued presently by the 
Special Envoy, and the most important one, is we have got to 
introduce consequences. If you are going to commit genocide, if 
you are going to undermine peace deals, if you are going to mar 
the preparations for a credible election, then there should be 
some form of multilateral consequence that the United States 
needs to lead the building of and imposition of around the 
world.
    And we talked a lot during the hearing about what kinds of 
things can be done. Those that argue we have tried everything, 
and they didn't work, are incorrect. There are many other 
things that can be done to ratchet up the pressure and work 
multilaterally to bring about change.
    Ms. Jackson Lee. Lieutenant General? Thank you very much, 
Mr. Prendergast.
    [Off-record response from briefer.]
    Mr. Payne. Thank you very much.
    Ms. Jackson Lee. If I may just conclude, and just say 
something, Mr. Chairman. If you would just yield.
    Mr. Payne. Yes, go right ahead. Because we have to leave 
the room. They have a big reception coming up here in about 10 
minutes.
    Ms. Jackson Lee. And I do want to accommodate. Let me just 
thank you again.
    In his absence, let me thank Major General Gration for his 
love of Africa, and his concern. Mr. Chairman, however, I would 
offer to say that we are getting a potential roadmap here of 
these very fine leaders that may be the road to nowhere. And I 
thank the committee for bringing to our attention this crisis 
that does not get the attention that I think it deserves.
    Mr. Prendergast, I am going to want to work with you 
directly on this whole question of sexual violence. When I was 
in Darfur it was occurring. It is not murder and death, as you 
note, but for some it is the death of their lives in terms of 
how they lived it.
    Lieutenant General, I think the pitting one against another 
leaves us in the condition and predicament that southern Sudan 
needs help, and Darfurians are still in camps. It is our 
commitment that we must not abandon this cause.
    I yield back.
    Mr. Payne. Thank you very much. And thank you for coming. 
Let me certainly thank the panel. This has been extremely 
informative.
    We have a very serious situation here. We know, because we 
have been watching the Government of Sudan for several decades. 
And as has been indicated, they only respond to pressure.
    I think that John Prendergast really hit the nail on the 
head. I think this current administration is trying to come up 
with a policy, but time is moving on. As I indicated before, 
half of our current term as Congressmen are up. As a matter of 
fact, after May or June, you are into campaign mode, and so 
almost two-thirds of your term is up.
    Now, the administration doesn't necessarily have to gauge 
their progress, or lack of it, on our terms. However, we do 
look at what are we going to accomplish in a term. And it has 
taken quite a while for the team dealing with Africa in 
general, and Darfur, I mean Sudan in particular, some time to 
assemble itself. And we have been patient. This was the first 
hearing we have had with the Special Envoy, and we are almost 
going into a new year, having 1 year already pass.
    And so there has been a level of frustration. I think that 
this has been a very good airing. I think that the 
administration is attempting to come up with policies. 
Afghanistan has taken some time to try to come up with a so-
called policy, but it has been all this time deciding what the 
policy is.
    We have seen China, whether we are going to be in love or 
at war, or angry or friendly. And they are still coming up with 
a policy on Tibet or Burma, et cetera.
    So we have been giving, we know it is a new administration. 
And there are many, many issues on the table. Many of the 
problems have been exacerbated by the fact that they were 
denied things like climate change, dealing with some of these 
other tough issues that have been, that have been postponed or 
delayed. So there are a lot of things on the table.
    I think that we, though, need to step up with some 
affirmative action. I do believe there may be several points of 
view in the administration, and that is one of the reasons why 
it is grappling with a Sudan policy, as it has grappled with an 
Afghanistan policy, trying to come up with a policy. Things 
that happened in the past, cattle raids and inter-communal 
violence years ago was not as deadly as it is now, because AK-
47s were not that available. And so violence was in a different 
manner. You had few deaths, perhaps. With AK-47s you can't 
predict the number of casualties you will have. With these same 
kinds of issues, now they can be escalated.
    And so we are going to certainly urge the administration to 
really kind of fine-tune its policy. And we are going to keep 
the pressure on. We feel that there must be a solution. Time is 
running out. We have been patient, but we must, as I mentioned 
before, make some strong affirmative actions in the right 
direction.
    So I would like to once again thank all of you here, and 
also our Special Envoy who was here. I would like to say that I 
ask unanimous consent that statements from the Save Darfur 
Coalition be made a part of the record. Without objection, so 
ordered.
    And I ask unanimous consent for our members to have 5 days 
to revise and extend their remarks. Without objection, so 
ordered.
    Once again, thank you, and the meeting stands adjourned.
    [Whereupon, at 3:34 p.m., subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>C. Smith statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
